<html>
<title> - SPECIALLY ADAPTIVE HOUSING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                       SPECIALLY ADAPTIVE HOUSING

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 7, 2007

                               __________

                           Serial No. 110-25

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                     U.S. GOVERNMENT PRINTING OFFICE
37-479 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

JOE DONNELLY, Indiana                JOHN BOOZMAN, Arkansas, Ranking
JERRY McNERNEY, California           RICHARD H. BAKER, Louisiana
JOHN J. HALL, New York               JERRY MORAN, Kansas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                              June 7, 2007

                                                                   Page

Specially Adaptive Housing.......................................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin, prepared statement of......    31
Hon. John J. Hall................................................     1
Hon. John Boozman, Ranking Republican Member.....................     2
    Prepared statement of Congressman Boozman....................    31
Hon. Joe Donnelly................................................     6

                               WITNESSES

U.S. Department of Veterans Affairs, Keith Pedigo, Director, Loan 
  Guaranty Service, Veterans Benefits Administration.............    22
    Prepared statement of Mr. Pedigo.............................    43

                                 ______

Blinded Veterans Association, Thomas Zampieri, Ph.D., Director of 
  Government Relations...........................................    18
    Prepared statement of Dr. Zampieri...........................    34
Disabled American Veterans, Brian E. Lawrence, Assistant National 
  Legislative Director...........................................    17
    Prepared statement of Mr. Lawrence...........................    33
Homes for Our Troops, John Gonsalves, President and Founder......     5
    Prepared statement of Mr. Gonsalves..........................    38
National Association of Home Builders, Brian Catalde, President, 
  and President and Chief Operating Officer, Paragon Communities, 
  El Segundo, CA.................................................     3
    Prepared statement of Mr. Catalde............................    36
Paralyzed Veterans of America, Carl Blake, National Legislative 
  Director.......................................................    15
    Prepared statement of Mr. Blake..............................    32

                       SUBMISSIONS FOR THE RECORD

American Legion, Shannon L. Middleton, Deputy Director, Veterans 
  Affairs and Rehabilitation Commission, statement...............    45
Cooper, Don D., Tacoma, WA, statement............................    46
Fraser, Linda, Rochester, IN, on behalf of her husband, Floyd 
  Fraser, statement..............................................    47
Studebaker, William J., Granger, IN, statement...................    49

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:
    Hon. John Boozman, Ranking Republican Member, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Carl Blake, National Legislative Director, Paralyzed 
      Veterans of America, letter dated June 8, 2007, and 
      response letter dated July 10, 2007........................    51
    Hon. John Boozman, Ranking Republican Member, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Brian Lawrence, Assistant National Legislative Director, 
      Disabled American Veterans, letter dated June 8, 2007, and 
      DAV response from Joseph A. Violante.......................    52
    Hon. John Boozman, Ranking Republican Member, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Thomas Zampieri, Ph.D., Director of Government Relations, 
      Blinded Veterans Association, letter dated June 8, 2007, 
      and response letter dated June 23, 2007....................    53
    Hon. John Boozman, Ranking Republican Member, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Brian Catalde, President, National Association of Home 
      Builders, and President and Chief Operating Officer, 
      Paragon Communities, El Segundo, California, 
      letter dated June 8, 2007 (No response was received from Mr.
       Catalde)..................................................    54
    Hon. John Boozman, Ranking Republican Member, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Keith Pedigo, Director, Loan Guaranty Service, Veterans 
      Benefits Administration, U.S. Department of Veterans 
      Affairs, letter dated June 8, 2007, and VA responses.......    55
Executive Summaries of the 2007 Lender Satisfaction Survey with 
  the VA Home Loan Guaranty Program; 2007 Specially Adapted 
  Housing Program: Grantee Survey; 2007 Specially Adapted Housing 
  Program: Non-Grantee Survey; and 2007 Veteran Satisfaction 
  Survey with the VA Home Loan Guaranty Program..................    57


                       SPECIALLY ADAPTIVE HOUSING

                              ----------                              


                         THURSDAY, JUNE 7, 2007

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 3:04 p.m., in 
Room 334, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, Donnelly, Hall, 
Boozman.

             OPENING STATEMENT OF HON. JOHN J. HALL

    Mr. Hall [presiding]. Good afternoon, ladies and gentlemen. 
The Committee on Veterans' Affairs, Subcommittee on Economic 
Opportunity hearing on Specially Adaptive Housing (SAH) will 
come to order.
    Before I begin with my opening statement, I would like to 
inform all of our guests that Chairwoman Herseth Sandlin is 
currently held up at another Committee markup and will be 
joining us as soon as she is finished.
    I would also like to inform the Subcommittee members and 
attendees that the American Legion, Mr. William Studebaker, and 
Mr. and Mrs. Floyd Fraser have asked to submit a written 
statement for the hearing record.
    If there is no objection, I ask for unanimous consent that 
their statements be entered for the record. Hearing no 
objection, so ordered.
    [The statements appear in the Submissions for the Record 
and are on pages 45, 47 and 49.]
    I want to thank the Chairwoman and the Ranking Member for 
holding this important hearing. As we have discussed before, 
the ratio of wounded to killed in Iraq is sixteen to one.
    While this shows the drastic improvement in battlefield 
medicine, caring for these new and severe injuries will require 
long-term support from the Federal Government.
    The Specially Adaptive Housing program is extremely 
important to the health and well-being of our veterans. This 
program is designed to allow our injured servicemembers to 
return to their homes. It allows them to resume a more normal 
life and being in a familiar environment, potentially helps 
treatment for those with severe injuries.
    However, I am deeply concerned that this program is 
underfunded. The graphic next to me is a fundraising flyer for 
Marine Sergeant Eddie Ryan.
    Sergeant Ryan's story is very well-known in the Hudson 
Valley. He was shot twice in the head in Ramadi. Doctors 
thought he had little chance to survive. He battled, however, 
and after months of therapy was well enough to begin to think 
about returning home.
    Home was not ready for him though. The hallway to his 
bedroom was too small for his wheelchair and the living room 
could not fit him and his family at the same time. Renovations 
to the house were estimated at $100,000.
    Since the house was owned by Sergeant Ryan's parents, he 
was only eligible for $10,000. Out of desperation, the family 
tried to get ABC's Extreme Makeover to modify their house. A 
family whose son nearly died for his country had to beg a 
television show to help them.
    Nothing came of this and the family had to continue to look 
for options. Eddie's parents ultimately transferred the house 
to their child so they could receive $50,000. To make up the 
difference, they relied on donated labor from local contractors 
and fundraisers like the one you see advertised on the display 
board to pay for the construction material.
    Ultimately the house was remodeled and Eddie was able to 
return home. He still faces serious rehabilitation and the 
family continues to face out-of-pocket costs for his care.
    The support Eddie Ryan received from his community is 
heart-warming and laudable, but it should not be necessary. No 
servicemember who has been seriously wounded defending his 
country, nor his family, should be required to beg their 
neighbors for support.
    Eddie Ryan's family was dependent on help from local 
Veterans Service Organizations (VSO's), on fundraisers, and on 
people selling tee shirts to get the money to allow their son 
to come home. The flyer is an indictment on how we treat our 
veterans.
    Families in this situation should be focused on helping 
heal their wounded soldier. They should not be worried about 
where the next check is coming from. These injured troops have 
paid a very high price. It is incumbent on their government not 
to ask them to pay the cost of adapting to their injury.
    I recognize the Ranking Member, Mr. Boozman, for any 
opening remarks.

             OPENING STATEMENT OF HON. JOHN BOOZMAN

    Mr. Boozman. Thank you very much, Mr. Hall. I think the 
story that we just heard really does tell us how important the 
hearing is that we are going to have today. The Specially 
Adaptive Housing grant program is relatively small and is not 
as well known as programs such as the GI Bill. But it is 
vitally important to those who qualify for the program, whether 
as a result of combat, as we just heard of, or the effects of 
diseases such as diabetes.
    That is why I want to thank Chairwoman Herseth Sandlin for 
holding the hearing and also for her leadership in this area. I 
also thank our witnesses in advance for their testimonies on 
this important program.
    I note that the Chairwoman has a bill, H.R. 675, to 
increase the maximum grant amounts and I would like to ask her 
to add me to the list of cosponsors.
    Again, the story that we just heard illustrates how 
important this is. Legislation affecting veterans' programs, 
including those designed to help our seriously disabled 
veterans, must comply with the budget rules on mandatory 
funding.
    And I hope Mr. Pedigo can give us an estimate of the PAYGO 
cost for that bill, the bill that we will be considering in the 
future, so that we can go about the process of identifying 
offsets.
    And certainly myself and our staff will be working with Ms. 
Herseth Sandlin and her staff in order to get those identified 
and find whatever offsets that we can so that we can go ahead 
and move her bill forward.
    Again, thank you, Mr. Hall, and we really do look forward 
to the testimony of the witnesses.
    [The prepared statement of Congressman Boozman appears on 
p. 31.]
    Mr. Hall. Thank you, Mr. Boozman.
    We have been called for a series of votes, so counsel has 
informed me that our best course of action may be to take a 
pause now, go vote, and then come back right away and hear from 
our first panel.
    I think if you would be patient with us while we do that, 
that will be the quickest way of our getting to the testimony 
that we all need to hear.
    We will go into recess for ten minutes or so while we run 
across the street and vote.
    Mr. Boozman. Thank you all. The only thing we have to do 
here is vote.
    [Recess.]
    Mr. Hall. Welcome back. You were not the ones who left. I 
am welcoming us back. But at any rate, the Subcommittee will 
come to order again.
    Mr. Boozman, thank you for your remarks.
    Joining us today in our first panel is Brian Catalde, 
President of the National Association of Home Builders; and 
John Gonsalves, President and Founder of Homes for Our Troops.
    Your written statements will be entered into the hearing 
record, so you may deviate from them if you would like.
    Mr. Catalde, you are recognized for five minutes.

STATEMENTS OF BRIAN CATALDE, PRESIDENT, NATIONAL ASSOCIATION OF 
   HOME BUILDERS, AND PRESIDENT AND CHIEF OPERATING OFFICER, 
   PARAGON COMMUNITIES, EL SEGUNDO, CA; AND JOHN GONSALVES, 
          PRESIDENT AND FOUNDER, HOMES FOR OUR TROOPS

                   STATEMENT OF BRIAN CATALDE

    Mr. Catalde. Mr. Hall, Ranking Member Boozman, and members 
of the Subcommittee, my name is Brian Catalde and I am 
President of the National Association of Home Builders (NAHB).
    I want to thank you for holding this hearing today to bring 
focus on the U.S. Department of Veterans Affairs (VA) SAH 
program and to explore ways the program can be expanded and 
improved to better serve the thousands of severely injured 
veterans whose homes must be modified in a way to allow them to 
live independently.
    The flexibility added in the ``Veterans Housing Option 
Benefit Act,'' which was signed last June, went a long way to 
help the SAH program, providing much-needed funds for the 
veterans who otherwise would not be able to live independently. 
I want to thank this Committee for their leadership in passing 
that reform.
    As you are aware, medical advances in the last years have 
enabled many servicemen wounded in service to return from a war 
which otherwise would have been a casualty in the past. As 
builders and remodelers, the National Association membership is 
committed to meeting the needs of these heroes.
    The leadership and the staff of the National Association of 
Home Builders Remodelers Council, an active sector of the 
National Home Builders membership representing 14,000 
remodelers, are spreading the word about the SAH program and 
how it can be used to help the needs of the severely disabled 
veterans.
    One of the NAHB Remodelers' designation programs is 
Certified Aging in Place Specialist or CAPS program. It was 
created to equip the remodeler to specialize in the 
acknowledgement and the needs of the aging homeowner.
    The skill gained in the CAPS training program helps the 
remodeler to understand and meet the needs for accessibility of 
the SAH grant recipient. NAHB is working with the VA leadership 
to encourage each of the VA SAH counselors to take the CAPS 
certification. The training that will be given to them will be 
of great help in their understanding of the remodeling 
necessary to meet the grant program.
    The remodelers have the tools to do the job to get it done, 
but, however, some of the SAH program requirements discourage 
industry participation in the program.
    Number one, it is important to ensure that the grant is 
spent wisely and work in the performance of meeting the vet's 
needs. While VA accessibility requirements are reasonable, the 
VA current process related to project approval is very 
paperwork intensive and is out of step with the industry 
issues. The benefit would be to minimize the paperwork and the 
work will get done.
    Number two, the grant under the SAH program often is too 
low to meet the cost for the extensive changes to enable a 
veteran to live independently in their home. The limits which 
typically cover the cost of remodeling a kitchen, a bathroom, 
and access, however, fall far short of the funding that is 
needed.
    The National Association of Home Builders recommend the 
grant ceiling be doubled to the present level and also be 
linked to a common measure of inflation which is CPI.
    Finally, under the current law, only one grant can be used 
for Temporary Residence Adaptation. This would pay for the 
change of a residence of a family member where the vet is 
temporarily residing.
    And after the changes have been made in the relative's 
home, sometimes what happens, the vet finds out he is unable to 
do it on his own. There needs to be a change in this program. 
If the vet is required to stay in this home, he should be 
entitled to the same benefits as if he went out on his own.
    This is a real problem and needs to be changed. We hope 
that you would take our recommendations into consideration. And 
thank you for the opportunity to speak with you.
    [The prepared statement of Mr. Catalde appears on p. 36.]
    Ms. Herseth Sandlin [presiding]. Thank you for your 
recommendations.
    Mr. Gonsalves, you are now recognized for five minutes.

                  STATEMENT OF JOHN GONSALVES

    Mr. Gonsalves. Thank you.
    Chairwoman Herseth Sandlin, members of the Subcommittee, I 
would like to thank you for allowing me to come here and speak. 
My name is John Gonsalves and I am the President and Founder of 
Homes for Our Troops. We are a nonprofit organization based in 
Taunton, Massachusetts, whose mission is to build specially 
adapted homes for severely injured servicemembers.
    The biggest problem that we have found, and I have spelled 
it out in here, is the amount of the Specially Adapted Housing 
grant. We looked at historically where the grant has been over 
the years.
    In 1969, the grant as a percent of the cost of a new home 
was 48 percent. At a high point in 1974, the grant was $25,000 
where the new home price average was $36,000 representing a 
percentage of 69 percent. At the current level, the $50,000 
Specially Adapted Housing grant only represents 17 percent of 
the average cost of building a new home.
    If we were to allow the levels of the grant to increase 
with the increased cost of homes and to maintain that amount 
that existed in 1974, this grant would be nearly $200,000 right 
now.
    We on average incur about $332,000 to build these homes. 
When we do these homes for the veteran, there is absolutely no 
cost to the veterans. The veteran gets the home free and clear 
with no mortgage.
    We feel this is the right direction to go with this. If we 
could get this grant to represent new home costs and start 
looking into some of the other problems with the grant, we know 
as an organization we could do a lot more by partnering with 
the VA.
    We have noticed also in the book most of it is around 
wheelchair accessibility. We deal with veterans with a lot of 
types of injuries. We are doing a home right now for a soldier 
named James Fair. James suffered an injury, very severe, to his 
right leg. He suffered a traumatic brain injury. He lost both 
of his hands and is blind in both eyes. We need to really look 
through this book and come up with new ways and new procedures 
and new adaptations.
    The first home we built when we initially submitted the 
plans to the VA, the plans were turned down because we did not 
have a roll-in shower and grab bars. We were building this home 
for an upper bilateral amputee. With no arms, grab bars are not 
going to help him.
    Fortunately, we have been working with Brian Bixler and Pat 
Arnold and they have been helping us along with a lot of these 
processes, but these processes are still a bit difficult. We 
have spelled out a lot of things that we hope you will 
consider, but the main thing is the grant.
    Many of these veterans, even with the grant, will not even 
qualify for loans to try to build these homes on their own. If 
we could do more with the VA and get this funding increased, I 
am sure we could build a lot more homes.
    We broke ground on our first home two years ago. Since 
then, we have finished 18 projects. We have 20 underway and we 
are going to take on 15 more. With the right type of funding in 
place, I am sure we can do tenfold. And we would like to 
continue with our efforts to make sure that these veterans have 
no mortgage. We think they have paid more than a high enough 
price for these homes.
    I would like to thank you again for allowing me to speak. 
We did pass out some supplemental information. Hopefully 
everyone can look it over. We also included a DVD that shows 
some of the types of adaptations we have done. James Fair, as I 
mentioned, his will be one of the probably most technologically 
advanced homes we will do.
    We have formed a partnership with Carnegie Mellon 
University and the University of Pittsburgh where we are 
actually going to work to develop technology that does not 
exist right now. There is a lot that we can do. I think it 
takes full cooperation and hopefully a partnership between 
Homes for Our Troops, the VA, and the members of the Committee.
    And I would just like to offer my thanks again to be here, 
to let you know what we are doing. The American people are more 
than willing to get involved in things like this.
    A few years ago when we started this, I was contacted by 
the Department of Defense (DoD). They heard about groups like 
ours and took action. They started a thing that is called 
America Supports You. It is a Web site that the DoD has to list 
organizations like ours. From its inception a few years ago, 
when there was just a handful of us groups, it has grown. There 
are now over 250 groups across the country doing everything 
from baking cookies, to giving them to soldiers who are 
deployed, to building homes.
    The American people are willing to do this. The biggest 
question we get asked when we are building homes for veterans 
is what is the VA putting into these and when we tell them that 
the grant is $50,000, most people are pretty shocked that that 
is all it is, especially with today's home prices.
    Our recommendation would be that this grant should be no 
less than $145,000. Thank you. I would be happy to answer any 
questions if you have them.
    [The prepared statement of Mr. Gonsalves appears on p. 38.]
    Ms. Herseth Sandlin. Thank you for your testimony and the 
great work that you do through this important program.
    I do have some questions, as I am sure the Ranking Member 
does as well, but if Mr. Boozman would accommodate allowing Mr. 
Donnelly to make an opening statement, I will recognize him now 
for that statement.

             OPENING STATEMENT OF HON. JOE DONNELLY

    Mr. Donnelly. Thank you, Madam Chairwoman, and thank you, 
Ranking Member Boozman.
    Unfortunately because of a scheduling conflict, I will not 
be able to stay for the duration of this hearing. However, I 
would just like to say a few words as we begin.
    I believe the Specially Adaptive Housing program is a 
crucial component in living up to our government's commitment 
to America's veterans. In Lincoln's words, ``to care for him 
whom shall have borne the battle. . . .''
    SAH grants are instrumental in ensuring that Americans who 
are seriously disabled in service to their country can live an 
independent, safe, and productive life in their own home. This 
is a program I think we can all strongly support and I am glad 
our Subcommittee is taking a close look to see whether it can 
be improved.
    Today I am pleased to bring to the Subcommittee's attention 
two pieces of testimony submitted by constituents of mine, one 
by Mr. William Studebaker and one by Mr. Floyd Fraser and his 
wife, Linda. In the words of Mr. Studebaker, the SAH grant has 
been a life saver.
    In both cases, these veterans and their families have good 
overall opinions and I believe their testimonies provide 
helpful, firsthand feedback on this program. Their stories also 
hint at areas of the SAH program that could be improved.
    Our Subcommittee should carefully consider whether the 
current grant amounts are sufficient to meet the needs of 
veterans participating in SAH. Further, we should consider what 
can be done to improve awareness of this program for veterans 
and contractors.
    And, finally, Madam Chairwoman, we should consider whether 
the VA can improve efficiency and reduce the bureaucratic 
burdens on our veterans and their families.
    Thank you very much, Madam Chairwoman and Ranking Member 
Boozman. Thank you.
    Ms. Herseth Sandlin. Thank you, Mr. Donnelly.
    Let me begin with a question for Mr. Catalde and thank you 
for the great work that the National Association of Home 
Builders does.
    Many of your members from across the country I know are in 
town this week. I had the pleasure of meeting with our 
homebuilders from South Dakota yesterday. I know they are as 
interested, as I am sure some of the other States are, in doing 
what they can, as they are doing down in Yankton, South Dakota, 
for a young servicemember coming back from rehabilitation in 
California to have a new home constructed to help meet his 
needs.
    I will have a few questions for you, Mr. Gonsalves, about 
some of your testimony and some of the obstacles that we have 
seen there because he is still on active duty and we have made 
some changes to accommodate them.
    Mr. Catalde, could you elaborate on your recommendation 
that the VA consider establishing local or regional panels of 
approved remodelers or contractors?
    Mr. Catalde. One of the discussions was that when you start 
a project, there is no common ground to start. And each project 
is analyzed on its own.
    In California, we had this same issue with schools and what 
we did is we standardized plans and we came up with 
standardized plans and standardized builders that could do the 
work.
    The current process is a lengthy process of approval and if 
you would check the number of counselors you have to service 
this program, if I remember correctly, the number is 67 
counselors that have actual jurisdiction over the work that is 
being done. That is not ample, so there needs to be 
standardization and you need to go to the private sector to get 
help in this.
    We have this designation which I talked to you about, CAPS, 
and really it was a program to teach contractors to work with 
the elderly, special needs there, handrail heights, different 
issues that were in their homes.
    A lot of those needs are the same that the vets have in 
requirement. But as mentioned earlier, each one of those have 
an impairment that requires a little something different, but 
you can standardize this.
    And if plans were standardized and used and your counselors 
knew what was involved and had a resource of people preapproved 
that they could say here is the grant. I would ask you to take 
a look at the time applied for a grant until the project 
starts. I do not have your records. I cannot look at that. But 
I believe if you look from the application time until actual 
physical work begins, you will find that is longer than the 
project.
    Ms. Herseth Sandlin. Thank you.
    So that I can ask all of my questions at once, I am going 
to defer to the Ranking Member for questions he may have and to 
Mr. Hall. Then I will come back, Mr. Gonsalves, to pursue a 
line of questioning with you.
    Mr. Boozman?
    Mr. Boozman. Thank you, Madam Chairman.
    In followup, I guess if we had a list, who would determine 
the qualifications?
    Mr. Catalde. It depends. Each State has its own licensing 
issue and the majority of the States have licensed contractors. 
I would believe that if a State, not all of the States have 
licenses, but if it is a licensed contractor and 
recommendations--and this panel in California, we have a panel 
that goes through the licensing, and there are recommendations 
that go with that and these people are determined.
    My company personally, we build assisted living facilities. 
The learning curve to get in to go from a homebuilder to being 
assisted living, we spent almost a year and a half in research 
to figure out the needs of that. You need that type of 
specialist in here.
    So taking, for example, and we are not the only one, a 
number of people that specialize in accessibility issues, which 
are the biggest problem that we have. The need in California, 
we have homes where we are required by law that if you have a 
large subdivision that one-third of the homes can be 
retrofitted. In other words, the cabinets are built specially 
to be taken out. The appliances in the kitchen, the same type 
of issues.
    There are individuals you can go to. The State Licensing 
Board would be one that would be approved in the specialist and 
each of us carry a different designation. The remodelers carry 
a separate designation from a homebuilder.
    Mr. Boozman. Very good. You mentioned indexing. I think 
both of you probably would be in favor of that. And you said 
you use the CPI as your base. As a homebuilder, would that be 
the appropriate index to use?
    Mr. Catalde. Funny you would ask that question. I was with 
Chairman Bernanke this morning and I was with the top 100 
suppliers in the United States. There were 20 of us that were 
there to meet with him to talk about what was happening, the 
cost of material, petroleum materials exceeding CPI. And that 
is all the plastics used. Copper, same thing. Copper is going 
through the ceiling.
    The CPI is a way to at least build a hedge into the system. 
I do not expect that the petroleum products are going to 
continue at the rate they have increased. Copper is a problem 
and will be a problem, but plastics, more and more plastics are 
being used in homes now.
    Mr. Boozman. Thank you.
    Mr. Gonsalves, I am a little confused. If your 
organization, if it donates to the vet at no cost does the vet 
qualify for the grant program?
    Mr. Gonsalves. Well, technically they do not because the 
way the grant is written, it can be up to $50,000, but not more 
than half the cost of the home to the veteran. So what we have 
had to do is we have all our bills and anything that we have to 
pay for actually gets written as an invoice to the veteran and 
we pay these invoices on their behalf.
    Mr. Boozman. I see. So that is how you get around it----
    Mr. Gonsalves. Yes.
    Mr. Boozman [continuing]. Which is good. Very good.
    Okay. Thank you, Madam Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    Mr. Gonsalves, there are a number of things in your 
testimony. Let me ask this first. In your written statement, 
you mentioned that in order for a qualifying veteran to receive 
the full SAH grant, the veteran must show a cost of $100,000 in 
home purchase or home adaptation cost.
    Have you experienced incidents where the full SAH grant was 
not awarded and where it was needed?
    Mr. Gonsalves. Well, with the houses we have done so far, 
we have not gotten all the way through the paperwork to receive 
any of these grants yet. The only grants that have been applied 
to any of the projects we do are if a veteran already owned 
land and owed money on it or already owned a home and we came 
in and retrofitted it.
    For instance, we did a home in California for a 
quadriplegic named Juan Beltran. We went in and made his home 
accessible for him. He had already owned the home, had a 
mortgage. I think it was about $340,000. So instead of taking 
the $50,000 grant and applying it to the work that was done, we 
had that money applied to pay down the mortgage.
    Same thing if a veteran owns land and there is a mortgage 
on the land. We will build the home and they will show what 
they have paid for the land and we have the grant applied to 
that mortgage so that they end up owing less money. Then from 
there, everything we do is at no cost.
    Ms. Herseth Sandlin. You also highlighted that the average 
cost of building a fully specially adapted home is $336,000. Is 
that a national average or a regional one?
    Mr. Gonsalves. That is our national average based on the 
homes that we have done. We have worked in about 18 States so 
far. So we have taken the cost of the different homes that we 
have done and that is the average that we are paying which is 
just over 10 percent more than the median cost of a new home. 
So it is a little bit more, but the homes that we do are 
extremely specialized.
    We go well beyond the recommendations of the VA. We work 
with a lot of companies. We will put proximity readers for 
front doors which sort of works like a mobile speed pass. Just 
when you are within the proximity, if you have the little card 
reader, it will unlock the door.
    We work with a company called Toto that makes toilet seats 
that are a bidet combination. It actually has a wand that comes 
out. It does front, rear cleansing. It is heated. It dries. It 
takes care of everything.
    We go well beyond and try to look at what the veteran's 
individual needs are. The book has a lot of great things, you 
know. The requirements for ramps and the pitch that they are 
at, that is all right on. There is a lot, but there is a lot 
more that we can do.
    I mean, when I first got a copy of this book, my first 
thing was can't they get me a newer copy. I did not realize 
this. I mean, the last time this was updated was April 1978. 
Most of the men and women in Iraq were not born yet.
    So there is a lot of new technology that can be put into 
this is what I am saying. A lot of what we do did not exist 
when this book was made.
    Ms. Herseth Sandlin. I may verify and seek answers from 
some of our other witnesses with regard to whether or not there 
is not--so you are saying you tried to seek an updated copy and 
the most recent copy that you were provided by the VA was----
    Mr. Gonsalves. Well, I was just making comment that, you 
know, a lot of what is in here is okay. It is based around 
wheelchair accessibility. So what I had originally thought was 
that there were newer copies than this because I saw that it 
said 1978, but that is the last time that this had been 
updated. And that is why I am talking about the sort of 
technology that we do.
    A lot of what these veterans need is not in this book and 
this book really needs to be updated to reflect technologies 
that can help people with the types of injuries, somebody like 
James Fair who I mentioned that is blind in both eyes plus has 
no hands. A lot of what is in here is not going to help him.
    But there is a lot of new technology, a lot of it is just 
in the past few years. And I think that is something that the 
VA should look at as these things are coming out, how does this 
translate into things that are going to help a lot of these 
veterans.
    Ms. Herseth Sandlin. Those are many good points that you 
have made there. In terms of vision impairment, you have worked 
with 18 disabled veterans, correct?
    Mr. Gonsalves. Right.
    Ms. Herseth Sandlin. Have all of them required these for 
wheelchair?
    Mr. Gonsalves. No. The first home we built was in my home 
State for a soldier who lost both arms. We work with 
quadriplegics, paraplegics. You know, some of them are blind. 
Some are combinations of all of those things.
    Ms. Herseth Sandlin. Are you aware of any problems that 
they have had if they do not require the use of a wheelchair in 
getting the Specially Adapted Housing grant?
    Mr. Gonsalves. No. I do not think not getting it, no.
    Ms. Herseth Sandlin. Ultimately. But have there been any 
obstacles? Have there been any questions raised by anyone that 
you are familiar with within the VA about disabled veterans who 
are not required to use a wheelchair but are seeking a 
Specially Adapted Housing grant?
    Mr. Gonsalves. The first home that we built was for 
Sergeant Peter Damon from Massachusetts. He lost one of his 
arms above the elbow and one below the elbow. Initially, 
because he still has an elbow on one side, they said that he 
would only qualify for $10,000 worth, but it depends on 
interpretation on some of this. So we had somebody else look at 
his case and put it before and then they did say, yes, he will 
qualify for the full $50,000.
    Ms. Herseth Sandlin. Who was it that you had look at his 
case more closely?
    Mr. Gonsalves. We actually had somebody from Paralyzed 
Veterans of America who early on became an advisor to me to 
explain how these things work. And he said that was the 
problem. It depends on who does it and how they interpret loss 
and loss of use.
    Ms. Herseth Sandlin. Thank you.
    Mr. Hall, did you have any questions for the panel?
    Mr. Hall. Thank you, Madam Chair. Just a couple.
    Mr. Catalde, you had mentioned that the current VA grant 
process is paperwork intensive and I was wondering if you can 
give examples of this or recount any remodelers who became 
discouraged from working with a veteran due to the paperwork 
requirements.
    Mr. Catalde. Before my testimony, I checked with the head 
of the Remodeler Council which I appointed and asked him if he 
had done any work on this. And he said yes. I said how did it 
go. He said normally for him to draw a set of plans and get 
them submitted and get everything approved in a city would take 
him anywhere from 45 to 60 days. And it would take him about 
two weeks to get the approval in the same magnitude of a 
project as this one. He said that timeframe was six months with 
the veteran.
    And he said the problem he had, he just wanted to do the 
work and, meanwhile, the veteran does not know the answer, does 
not know if it is going to happen, and he said it was just 
horrible for him. He said that he has talked to other members 
of the council. There are 14,000 of them in total. And most of 
them look at it as a business proposition and it is to break 
even.
    Mike told me personally he completed it. The grant was the 
full $50,000 and he wrote a check for $8,500 of his own money. 
And I said are you continuing to do it. He said yes. He says I 
owe that to the country.
    Mr. Hall. Well, God bless him and I hope there are more, 
and I trust there are more, like him out there.
    Mr. Gonsalves, are you aware of any costs you can tell us 
about that are incurred by the veteran to complete the required 
paperwork in applying for an SAH grant?
    Mr. Gonsalves. Cost to the vet----
    Mr. Hall. Right. The paperwork that we were just talking 
about, does this cause the veteran to incur additional costs?
    Mr. Gonsalves. I do not believe it is any additional cost 
to them. I know the problem that we have had is because of 
sometimes the amount of time it takes to get the approval. If 
everything does not get submitted and worked through the VA 
ahead of time, you cannot go back and get the grant after.
    We actually have homes where we had builders and people 
that just did not want to wait. And we got these homes built in 
90 days and we will never see the grant to get any of the costs 
on that. And it is just something that we were willing to do 
and not worry about getting the $50,000 because we had the 
people waiting to build the house.
    And in some of these cases, one of the houses that we did 
was in Philadelphia. The community stepped up so much that this 
veteran got cable for life, Internet for life for free, laptop 
computers, fully furnished, right down to food in the fridge 
and new tooth brushes. People were just waiting to do this and 
we could not wait.
    So, unfortunately, sometimes we cannot even wait to start 
the process just because we have people that will get these 
houses done in a matter of a few months. So we just go ahead 
and build them and not worry about it.
    Mr. Hall. That is great. That is really great to hear and I 
think that should lead the news tonight. I am happy to hear a 
good story like that leading the news.
    The last question I had was you mentioned redefining 
specially adapted so that resources provided to adaptations 
needed for today's servicemembers would be appropriate as 
opposed to the needs of veterans of previous wars.
    Can you provide us with any information on instances in 
which unnecessary adaptations were built and resources could 
have been better used?
    Mr. Gonsalves. Well, we did a house in Springhill, 
Louisiana, for a soldier named Kyle Berlison who was shot in 
the cheek by a sniper and the bullet went through his spinal 
cord. And he's a quadriplegic on a respirator. He has very 
little head movement, just enough to move a toggle switch to 
operate his wheelchair.
    To be able to work through the VA grant in this one before 
we came up with the ways where we got the invoices done to the 
veterans, we had this veteran get a loan for $100,000, put it 
into a bank account so that he could get the $50,000 grant.
    The problem with it is before we could get the approval for 
the grant, we had to show that we were putting the grab bars 
and things in this house. There is no way that this soldier 
will ever be able to use a grab bar.
    What we did put in there is he has a tube next to the arm 
that has the toggle to operate his wheelchair that he can blow 
into and it will open and close doors. So we look at what is 
really appropriate for the individual veteran.
    I would be more than happy to have our organization work 
with anyone in the VA to go through all the technology that we 
are working with at CMU and the University of Pittsburgh. And 
we have a lot of resources with those two universities and a 
lot that we have done in the past and we could put a whole 
checklist together that really matches adaptations to an 
individual veteran's needs. And we would be more than happy to 
work with you on that.
    Mr. Hall. Thank you very much.
    Thank you, Madam Chair.
    Ms. Herseth Sandlin. Thank you.
    Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chairman.
    I guess in regard to that, if the work is actually done and 
if you start making these significant modifications, you are 
actually decreasing the value of the house more. In other 
words, there is a limited market for these type of modified 
houses, is there not?
    I mean, if you are a realtor and you are trying to sell a 
handicapped this and that, that is not like remodeling the 
kitchen, you know. See what I am saying? Does that not actually 
reduce the value of the house for the average buyer?
    Mr. Catalde. That was my argument before the city of Los 
Angeles invoked the 10 percent and then the 25 percent 
requirement. And we now have the technology to build these 
homes that when you walk in there and you look at that kitchen, 
you cannot tell it is any different from any other kitchen. But 
with the removal of approximately 20 screws, a changing of one 
piece of appliance in the home, the bathroom, the accessibility 
through that, that is not a real decrease in value.
    The perception of the ramp at the front of the house in 
most cases, that is wood. It can be put in and removed. Very 
rarely are those permanent ramps poured in concrete.
    But to answer your questions, if in that State, yes, but 
the technology that we now have for cabinet companies, we 
actually put the linoleum right under the cabinet so if the 
cabinet is taken out, the linoleum is there in the bathroom or 
the tile.
    It exists today. It can be done that way very easily and 
the only real setback to it is the ramp in front. And if it is 
a temporary ramp with wood, that is it.
    The other issue is that there is a lot of standards that as 
homebuilders we are required to meet which are the Americans 
with Disabilities Act (ADA) standards. So whether the veterans 
may not have arms, we still are required to meet those 
standards even though they are not needed. And those we have to 
put in every home we build and we continue to do that.
    But the technology has changed and I have not seen this 
book, but it would not be a surprise to me to look over and see 
that there is a manual sitting there that is older than our 
veterans and that----
    Mr. Boozman. And I think that is excellent that we are able 
to do that with technology. I guess my point was that there is 
really--one of the things that we worry about with grants and 
things like that is making sure as far as fraud and things like 
that--if you talk about things in a conventional way, if you 
make these modifications in an effort to help somebody like we 
want it done and the work is really done you are really not 
increasing the value of the home. See what I am saying? And, 
again, that to me is just a lessening of the fraud aspect of 
it.
    Very quickly, Mr. Gonsalves testified the fact that 
$300,000 plus is the price for an average home. In Arkansas, 
that would be a little bit steep. Would you agree with that?
    Mr. Catalde. The State I am from is California.
    Mr. Boozman. Nationally?
    Mr. Catalde. And so an entry level house which I build in 
California is about $500,000. I have some communities where we 
build in northern California, upper-end communities, and to 
pull a permit in that community, I have to walk in with a check 
for $145,000 to pull a permit. So it does not apply.
    Mr. Boozman. Well, I think Ms. Herseth Sandlin and I live 
in different parts of the world. Thank you very much.
    Thank you, Madam Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    Mr. Gonsalves, did you want to address any of the questions 
of Mr. Boozman?
    Mr. Gonsalves. Well, I think the same thing. I do not think 
making a home handicapped accessible is really going to 
decrease the value. Depending on the type of foundation it sits 
on, you may not have a ramp. A ramp is probably the one thing 
visually that you would notice.
    But on the inside, other than, you know, if you have a 
couple of grab bars or something, the homes we do end up really 
beautiful. A lot of them, I never expected them to come out as 
good as they did. You know, more often than not, we end up 
putting granite countertops in these homes just because the 
local granite countertop companies want to give them to us.
    So most of what is done I do not think will really reduce 
the cost too much. What you end up with is larger bathrooms, 
wider doors, more open floor space which I think more often 
than not is desirable.
    Ms. Herseth Sandlin. Just one followup question. The 
$336,000 that you identified as being a national average for 
the homes that you have done, how is the cost of materials 
provided in kind calculated into that average?
    Mr. Gonsalves. That is calculated in there. So that was 
just like if nothing was donated and we pay it, that is what 
the cost would be. We have corporate sponsors like Simonton 
Windows that when we put an order for a home, we will get a 
cost breakdown of what the cost of these windows would have 
been. So that is how we figure these numbers out. And we are 
pretty much right in line with the national average when we 
figure it.
    I think on some of them, we may have even been a little low 
just because of the high quality of what we get, just because 
people want to help. You know, people support the troops. We 
are probably pretty evenly divided in this country about the 
war, but I think people have realized supporting the troops, it 
is not a left thing, it is not a right thing, it is the right 
thing.
    Ms. Herseth Sandlin. Well, thank you both very much. I 
thank you for accommodating the delay in the start of the 
hearing. I apologize for that. We are trying to fit in quite a 
bit this week in a number of other committees and there were 
just uncertainties about the markup and the votes in another 
committee. But I appreciate it.
    I know you have other places that you need to get to this 
afternoon to share the great work that you are doing with 
others. I want to thank you for being here, for your testimony, 
and thank you for the great work that you are doing on behalf 
of our veterans who are a new generation of veterans who want 
to be able to take advantage of new technologies that the 
industry has incorporated. We need to be able to adapt to that 
and the programs that we have jurisdiction over and working 
with the officials at the VA to make it work as best as 
possible. Thank you very much.
    Mr. Gonsalves. Thank you.
    Ms. Herseth Sandlin. I would now invite panel two to the 
witness table. Joining us on the second panel of witnesses is 
Mr. Carl Blake, National Legislative Director for the Paralyzed 
Veterans of America; Mr. Brian Lawrence, Assistant National 
Legislative Director for the Disabled American Veterans; and 
Mr. Thomas Zampieri, Director of Government Relations for the 
Blinded Veterans Association. Your written statements will be 
entered into the record as well.
    Mr. Blake, we will go ahead and begin with your testimony. 
You are recognized for five minutes.

   STATEMENTS OF CARL BLAKE, NATIONAL LEGISLATIVE DIRECTOR, 
  PARALYZED VETERANS OF AMERICA; BRIAN E. LAWRENCE, ASSISTANT 
NATIONAL LEGISLATIVE DIRECTOR, DISABLED AMERICAN VETERANS; AND 
   THOMAS ZAMPIERI, PH.D., DIRECTOR OF GOVERNMENT RELATIONS, 
                  BLINDED VETERANS ASSOCIATION

                    STATEMENT OF CARL BLAKE

    Mr. Blake. Madam Chairwoman, members of the Subcommittee, 
on behalf of Paralyzed Veterans of America, I would like to 
thank you for the opportunity to testify today on an issue that 
is probably of the utmost importance to PVA and its membership.
    Since its founding in 1946, PVA has advocated for the idea 
that the disabled veteran should have the same access to and 
use of his or her home as a nondisabled veteran.
    PVA began lobbying Congress in 1947 for legislation that 
would provide a Federal grant to make homes accessible. We 
argued that paralyzed veterans were forced to remain in the 
hospitals because their former homes could not accommodate 
their wheelchairs.
    In 1948, the U.S. Congress passed Public Law 702. Under 
this law, the VA, now the Department of Veterans Affairs, 
approved $47 million for the construction of wheelchair-
accessible homes.
    Through the years, the SAH grant has been adjusted in an 
attempt to keep pace with the rising cost of home construction. 
However, it has been done in a seemingly random fashion and 
with no set timetable for periodic adjustments. As a result, it 
has lagged behind the obvious rising cost of construction.
    Public Law 108-183, passed in 2003, provided the last 
adjustment to the SAH grant. At that time it was increased to 
$50,000 from $48,000. Meanwhile, construction material costs 
for single-family homes have significantly increased during 
that time. In fact, according to the National Home Builders 
Association, from 2002 to 2005, the average construction cost 
increased from approximately $76.00 per square foot to more 
than $90.00 per square foot, about a 20-percent increase.
    Most, in fact nearly all, SAH grants are used for building 
new homes because it is difficult to find an existing home that 
can be made totally accessible and be done at a reasonable 
cost. It is a simple fact that there are significant cost 
savings by building accessibility into a new home rather than 
modifying an existing home. It is estimated that new 
construction is 10 to 15 percent less expensive than renovating 
an existing structure for the same exact features.
    Based on information from our architectural department, PVA 
recommends that the grant be increased by 20 percent to 
$60,000. PVA members are the highest users of this very 
important grant. The grant allows veterans with severe service-
connected disabilities to realize the dream of owning their own 
home when they otherwise may not have had the opportunity. PVA 
also believes an equivalent increase in the grant for veterans 
with service-connected blindness should be made from $10,000 to 
$12,000.
    Our architectural staff estimates that building a fully 
accessible bathroom alone for the needs of a high-level spinal 
cord injured veteran could cost anywhere from $30,000 to 
$50,000. Making all other normal living areas in the home, 
including the kitchen, the bedroom, and the living room, more 
accessible would add significantly more cost.
    In accordance with the recommendations of the Independent 
Budget (IB), we also urge the Subcommittee to consider 
legislation that would require the VA Secretary to establish a 
residential home cost-of-construction index to be used 
automatically to adjust the amount of these grants each year.
    As the housing market has continued to boom, these grants 
have not kept pace. Without an annual adjustment to the grants, 
inflation will continue to erode their purchasing power.
    PVA would also like to make an additional recommendation, 
in accordance with the policy contained in the IB for fiscal 
year 2008. Like the needs of other families today, veterans' 
housing needs tend to change with time and new circumstances. 
An initial home may become too small when the family grows or 
become too large when children leave home. Changes in the 
nature of a veteran's disability may necessitate a home 
configured differently and changes in special adaptations may 
be needed.
    These things merit a second grant to cover the costs of 
adaptations to a new home. We hope that the Subcommittee will 
consider this additional benefit as it seeks changes or 
improvements to the Specially Adapted Housing grant.
    Chairwoman Herseth Sandlin and Ranking Member Boozman, PVA 
would once again like to thank you both for the focus you have 
put on this issue. Ms. Herseth Sandlin, we particularly 
appreciate your strong advocacy to make these needed changes to 
the SAH grant, and we hope that your Committee will 
expeditiously consider your legislation, H.R. 675.
    I would like to thank you again for the opportunity to 
testify, and I would be happy to answer any questions that you 
might have.
    [The prepared statement of Mr. Blake appears on p. 32.]
    Ms. Herseth Sandlin. Thank you very much, Mr. Blake.
    Mr. Lawrence, you are recognized for five minutes.

                 STATEMENT OF BRIAN E. LAWRENCE

    Mr. Lawrence. Thank you.
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and 
members of the Subcommittee, I am honored to present the views 
of the Disabled American Veterans (DAV) on this Specially 
Adaptive Housing program. On behalf of our 1.3 million members, 
I express our appreciation for this opportunity.
    Madam Chair, before I cover the DAV's recommendations, I 
want to convey the sincere thanks of our members for your 
continuing efforts to provide for the special needs of severely 
disabled veterans and their families. Throughout your tenure on 
the Committee, you focused on this important issue and it is 
noted and appreciated.
    Specially adapted homes are considerably more expensive 
than conventional homes. However, while building costs have 
risen, the grant has remained relatively flat. The last 
increase in 2003 was not adequate to keep pace with rising 
costs.
    The original $10,000 grant was established in 1948. 
According to the Consumer Price Index, what cost $10,000 in 
1948 would cost more than $87,000 today. Therefore, the current 
maximum amount holds just over half the market value of the 
original grant.
    The DAV has a longstanding resolution calling for a 
realistic increase and an automatic annual adjustment based on 
the cost of living. As such, the DAV fully supports the 
legislation you introduced, Madam Chair, H.R. 675, the 
``Disabled Veterans Adaptive Housing Improvement Act,'' which 
would increase the $50,000 grant to $60,000 and increase the 
$10,000 grant to $12,000. And the bill would provide for 
automatic annual adjustments. We hope that the proposals 
contained in this bill will be approved by the Subcommittee.
    Public Law 108-454 authorized VA to provide grants of up to 
$10,000 to disabled veterans residing temporarily in the home 
of a family member. The DAV supported this provision. However, 
we recommended that the amount used should be added to the 
overall amount to which a veteran is entitled.
    In most instances, severely disabled veterans residing with 
a family member will eventually seek to establish their own 
permanent residences. In such instances, the maximum amount 
should be available to the veteran regardless of previous 
grants.
    Likewise, the DAV supports H.R. 1315 which you also 
introduced to provide Specially Adaptive Housing grants to 
disabled members of the Armed Forces residing in the home of a 
family member. We recommend that such grants be added to the 
overall amount available for later use.
    Madam Chair, members of the Subcommittee, that concludes my 
statement. I will be happy to respond to any questions you 
might have. Thank you.
    [The prepared statement of Mr. Lawrence appears on p. 33.]
    Ms. Herseth Sandlin. Thank you very much, Mr. Lawrence.
    Mr. Zampieri, you are recognized.

                  STATEMENT OF THOMAS ZAMPIERI

    Mr. Zampieri. Madam Chairwoman and members of the House 
Veterans' Affairs Subcommittee on Economic Opportunity, the 
Blinded Veterans Association appreciates being able to testify 
today and having our views heard on this important issue.
    We agree with the other Veteran Service Organizations that 
this is an area that is necessary to look at and have changes 
made in order to meet the needs of the wounded servicemembers 
returning and also for the older veterans who from previous 
wars have had major catastrophic types of injuries.
    Our interest in this especially is that, you know, in 
talking to our Field Service Program Director this morning, I 
asked a simple question. In the 11 years that you have been our 
Field Service Program Director, how many blinded, service-
connected, permanently blind veterans have been eligible for 
the $50,000 current grant? And he said I know of four, because 
if you are not an amputee or if you do not have other 
associated injuries, then usually you end up being considered 
only qualified for the Special Home Adaptation grant of the 
$10,000 which also, though, says that blindness is defined in 
both eyes as 5/200 vision acuity or less.
    And so we have some concerns because when you look at the 
traumatic brain injuries who have, as Congressman Boozman is 
interested in, I hear, a lot of severe visual complications, 
but they are not going to meet 5/200 and, yet, comparing those 
individuals to my situation where I would not meet this 
requirement either, they would benefit from the grant if there 
was a legal definition of blindness.
    In other words, a Social Security recipient is entitled to 
be considered legally blind with 20/200 vision or less or 20 
degrees or less of loss of peripheral vision, whereas a veteran 
has to meet a higher standard of blindness in order to qualify 
for the grant.
    In fact, what we have found historically is most of our 
members only apply for the Home Improvement and Structural 
Alteration grants, the HISA grant, which is only $4,100, and 
that comes out of the VHA side. And for a nonservice-connected 
veteran, the HISA grant is $1,200. Again, it is a different pot 
of money, but Blinded Veterans Association wanted to draw that 
to the attention of the Committee recognizing that we are 
focused today on the Specially Adaptive Housing grants and the 
$50,000 and the $10,000.
    We are fully supportive of H.R. 675 and the increases that 
bill would allow for veterans. We would like to ask that the 
Committee consider the issue of traumatic brain injuries.
    And also we were supportive of Senator Cornyn's bill in the 
Senate in regard to severe burns also being considered in view 
of the grants.
    So I again appreciate the ability to be invited to testify 
this afternoon and appreciate this, and will be happy to answer 
any questions.
    [The prepared statement of Mr. Zampieri appears on p. 34.]
    Ms. Herseth Sandlin. Thank you very much for your 
insightful testimony. I think Mr. Boozman and I and Mr. Hall 
and all members of the Subcommittee are very interested in 
considering traumatic brain injury and the disabilities, the 
complex nature of the disabilities, that our servicemembers are 
facing.
    I had mentioned at the outset that we have a young man from 
South Dakota who is still on active duty, so there is this 
additional wrinkle, and he suffered a traumatic brain injury 
and has been getting his rehabilitation in California. When his 
wife and mother initially applied for a Specially Adapted 
Housing grant, they were told that he probably would only get 
the $10,000 unless they made sure that there was some way that 
he was required to use a wheelchair.
    There are problems other than vision impairment. There are 
severe problems that he is trying to overcome with his physical 
therapy, and his occupational therapy. The fact that they were 
warned by someone prior to applying that, to get the $50,000 he 
has to need a wheelchair, this really raises a lot of 
interesting issues for us to consider as we look at modifying 
these grant programs to meet the needs of today's veterans and 
the types of injuries that they are sustaining.
    I do have a question for all of you just to start us out 
here because we are going to have votes called within the next 
ten minutes.
    Mr. Gonsalves on the first panel had a pamphlet with him, 
the VA pamphlet 26-13, that he states was last updated in April 
1978. Could each of the three of you respond to your 
familiarity with this pamphlet and whether or not you are aware 
of a more recent update?
    Mr. Blake. Well, Madam Chairwoman, I would say first that I 
am not the expert on that particular pamphlet, but PVA as an 
organization has an entire department devoted to architecture, 
principally accessible design and universal design, and our 
architects are as familiar as maybe anyone in the entire 
architecture community when it comes to any type of 
accessibility, to include VA pamphlet 26-13.
    When I actually asked this question of our Director of 
Architecture about the fact that the pamphlet was last updated 
in April 1978, that is a fact. There is no update that I am 
aware of, and the VA maybe can speak to that, but I am not 
aware of it. She was not aware of it.
    There are certainly probably some need for updates as it 
relates to newer technologies and things like that, but I want 
to kind of respond to the suggestion that with that pamphlet 
there is a sort of rigidity with the SAH grant and kind of draw 
on my own experience.
    I do not think it is as rigid maybe as it is laid out to 
be. I think there is some level of discretion throughout the 
process as a veteran applies for the SAH grant and then makes 
use of that grant once they become eligible.
    I would certainly say that we usually recommend that we 
point veterans who have the severest disability, particularly 
with Spinal Cord Injury (SCI), in the direction of our service 
officers because they know the ins and outs of all of the 
benefits that the most severely disabled veterans would be 
eligible for to include this and know how to work their way 
around what the guidelines are in pamphlet 26-13 and how to 
best assist the veteran to meet those requirements and still 
address some of their specialized needs that may fall outside 
of the boundaries of what are really, in my mind, minimum 
requirements when it comes to accessibility. That is the long 
answer.
    Ms. Herseth Sandlin. Mr. Lawrence?
    Mr. Lawrence. I do not have anything I could add to what 
Carl said.
    Ms. Herseth Sandlin. Do you agree with him that it does not 
seem to be in your experience as rigid as perhaps was 
described, although we are all acknowledging until we have a 
chance to pose the question to our next witness, that as far as 
you are aware, there has not been an update of the pamphlet 
since 1978?
    Mr. Lawrence. No. As far as I know, there has not been an 
update.
    Ms. Herseth Sandlin. Okay.
    Mr. Zampieri. I am not aware of anything new. And just as 
the previous panel said, I am concerned about where we are 
headed here with the new technologies. And part of that gets 
more complicated, too, because a lot of the prosthetic devices 
that are developed for the blind are incorporated into the, you 
know, virtual homes now and it gets real complex.
    The Intrepid Center in San Antonio, Texas, by the way, is 
already exploring the virtual new home. And so even though they 
have only been open since the end of January, one of the things 
they are already doing from I guess a research standpoint down 
in San Antonio at the new Intrepid Center working with the 
Brooke Army Medical Center and VA in San Antonio is the virtual 
home. And that should scare everybody because it is like having 
everything computerized, you know, the different things in the 
home.
    So, you know, technology is great and it allows people to 
live independently and it is going to be a challenge, and I am 
not being critical of the VA, to keep up with this because our 
major goal is to keep people living as independently as 
possible and be able to hopefully have them at home and be able 
to get them into employment so that, you know, the worst case 
scenario is these individuals could easily end up in a nursing 
home.
    And the cost for a one-year hospitalization in a nursing 
home in the United States is no secret. It is about $45,000 a 
year if one of these young, traumatic brain injured, blind 
servicemember's only alternative is the family puts them in a 
nursing home. That is what the cost will be for that.
    Ms. Herseth Sandlin. Thank you to all of you.
    Mr. Boozman, do you have questions? I think we have enough 
time.
    Mr. Boozman. Just very briefly. I really do not have a 
question.
    I just want to thank you all for your advocacy. And, again, 
I think what was just said about the importance of helping 
these individuals become employed and being productive members 
of society which they desperately want. Keeping them out of 
institutions is certainly what we all want, and you all do a 
tremendous job of advocating and helping us do that.
    In regard to the vision question, whether it is from 
traumatic brain injury or for whatever reason, as an 
optometrist, my brother is an ophthalmologist, being part of a 
very large clinic, we worked with this type of thing all the 
time in the sense of trying to help determine amount of 
disability for various entities.
    And the way that we are doing it in the VA there is no 
other way with any of those entities, and I agree with you 
totally. It is something we have to clean up. There is not a 
very rational basis behind it.
    And, again, that is something that I agree with you about 
and we really are working hard to try and get that fixed. So 
thank you.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    Mr. Hall?
    Mr. Hall. I would just like to associate myself with the 
remarks of the Ranking Member and the Chair of the Committee 
and thank you for your testimony. I do not have any questions. 
Thank you.
    Ms. Herseth Sandlin. Let me thank you for your statements 
in support of the bills that I have introduced and your 
suggestion 
that we take a look at the grant that would be provided under 
H.R. 1315 for adaptations to a family member's home added to 
the overall amount. We will certainly take that into 
consideration. I think I understand the basis for which you are 
making that recommendation.
    This is an area where I do have a special interest as I 
know you have just heard from Mr. Boozman that he does too. We 
want to do all that we can update where we are. I think that we 
have heard about the need to find some balance in terms of 
helping meet some basic needs for independent living that will 
include incorporating some new technologies.
    Perhaps, as Mr. Zampieri has described, just how focused at 
this stage we are going to be on that given the costs 
associated with, as I think Mr. Gonsalves clearly described, a 
$336,000 home, as Mr. Boozman said in Arkansas and South Dakota 
will be living in the nicest, and we want nice, suitable homes 
for our veterans, but we also have to recognize that there are 
going to be some regional differences. We are not just looking 
at the need for the veteran to have a manner in which to live 
independently to avoid the cost for long-term care, and I share 
your concern that some of our traumatic brain injured soldiers 
who have not been getting the kind of longer term physical 
therapy that they deserve have already found themselves 
unfortunately in that environment, but also the market value of 
the home, the investment and the equity that the veteran has in 
that home.
    I thank you again for your comments, your testimony, the 
expertise and insight that you have offered. We will look 
forward to working with you more on the bills that have already 
been introduced, others that may be introduced in the future, 
and take your advice and counsel into consideration.
    We do have two pending votes, so we will break and come 
back for our final panel which includes our one witness who we 
look forward to hearing from in light of the testimony we have 
received from the first two panels today. I anticipate we will 
be back sometime right around five o'clock. Hopefully we will 
be able to resume.
    Okay? Mr. Boozman, does that sound good to you? All right. 
Very good.
    [Recess.]
    Ms. Herseth Sandlin. We would now invite our witness for 
panel three to the witness table. Participating in our third 
panel is Mr. Keith Pedigo, Director of Loan Guaranty Service 
for the U.S. Department of Veterans Affairs.
    We welcome you back to the Subcommittee. Again, as I 
mentioned, thank you for accommodating the schedules here 
today. We appreciate it and we look forward to your testimony. 
You are recognized for five minutes.

  STATEMENT OF KEITH PEDIGO, DIRECTOR, LOAN GUARANTY SERVICE, 
 VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

    Mr. Pedigo. Thank you. It is a pleasure to be here this 
afternoon.
    Madam Chairwoman and members of the Subcommittee, I 
appreciate the opportunity to appear before you today to 
discuss VA's Specially Adaptive Housing program.
    In my testimony, I would like to highlight VA's commitment 
to meeting the housing needs of our Nation's most seriously 
disabled veterans.
    The VA home loan program serves a clientele that is diverse 
in many ways. The only common denominator of this clientele is 
service in the Armed Forces of the Nation.
    Specially Adapted Housing grants for severely disabled 
veterans are among the most important benefits that the Loan 
Guaranty program provides. Veterans who have certain service-
connected disabilities may be entitled to a grant from VA for 
the purpose of constructing an adapted home or modifying an 
existing home to meet the veteran's needs.
    The goal of the grant program is to provide a barrier-free 
living environment which affords the veteran a level of 
independent living that he or she may not otherwise enjoy. 
Since the inception of this program in 1948, VA has provided 
approximately 34,000 grants totaling $650 million. There are 
three types of grants administered by the Loan Guaranty program 
which are available to assist severely disabled veterans in 
adapting housing to meet their special needs.
    The most commonly used of these grants is the Specially 
Adapted Housing grant. This grant is typically used to create a 
wheelchair accessible home and is currently limited to $50,000.
    Next there is a Special Home Adaptations grant which is 
generally used to assist veterans with mobility throughout 
their homes. This grant is currently limited to $10,000.
    The third grant is the Temporary Residence grant which is 
available to eligible veterans temporarily residing in a home 
owned by a family member. Under this program, veterans eligible 
for a Specially Adapted Housing grant would be permitted to use 
up to $14,000 and veterans eligible for the Special Housing 
Adaptations grant would be permitted to use up to $2,000 of the 
maximum grant amounts.
    As a result of Public Law 109-233, eligible veterans or 
servicemembers may receive up to three Specially Adapted 
Housing grants. Prior to enactment of this law, veterans were 
limited to using the grants one time.
    In order to ensure that all living prior grant recipients 
were aware of this new opportunity, VA mailed out approximately 
16,000 letters to these veterans in December of 2006 informing 
them of the change to the law. The response has been dramatic. 
VA field offices have received over 4,200 requests for 
subsequent use grants as of May 2007.
    To put this into perspective, over the past ten years, VA 
averaged receiving about 1,000 grant applications per year. 
This clearly is a substantial increase in volume and VA is 
prepared to devote the necessary staffing resources to ensure 
that these veterans receive timely grant processing.
    I would like to briefly talk about eligibility for housing 
grants. First, the Specially Adapted Housing grant is available 
to veterans who have a service-connected disability entitling 
them to compensation for permanent and total disability due to 
the loss or loss of use of both lower extremities or blindness 
in both eyes, having only light perception, plus the loss or 
loss of use of one lower extremity, or the loss or loss of use 
of one lower extremity together with residuals of organic 
disease or injury, or, finally, the loss or loss of use of both 
arms at or above the elbow.
    The Special Home Adaptations grant is available to veterans 
who have a service-connected disability entitling them to 
compensation for permanent and total disability due to 
blindness in both eyes with 5/200 visual acuity or less or the 
anatomical loss or loss of use of both hands or extremities 
below the elbow.
    Madam Chairwoman, you asked for our views regarding the 
sufficiency of grant amounts. The last grant increase provided 
by Congress was in 2003, at which time the Specially Adapted 
Housing grant was increased from $48,000 to $50,000.
    Since 2003, 98 percent of grant recipients used the entire 
amount available. Of those who did not use the entire amount, 
the average use was over $49,000. As these numbers show, most 
grant recipients are utilizing the full amount permitted under 
the current statutory limitations.
    In 2003, VA conducted a survey of grant recipients. The 
purpose of this survey was to help determine whether and how 
well we were meeting the needs of these veterans. Ninety-two 
percent of grant recipients indicated that they were satisfied 
or very satisfied with the overall grant program.
    We are currently conducting another customer satisfaction 
survey to determine how we have improved in our grant delivery 
methods and timeliness. We hope to have the results from the 
survey by the end of this fiscal year. We intend to use the 
feedback to further improve the grant process.
    Madam Chairwoman, this concludes my testimony. I greatly 
appreciate the opportunity to be here today and look forward to 
answering your questions or those of the members of the 
Subcommittee.
    [The prepared statement of Mr. Pedigo appears on p. 43.]
    Ms. Herseth Sandlin. Thank you very much. You did say that 
the survey, that you expect to get the results of the survey 
later this year? Is that what you testified to?
    Mr. Pedigo. Yes. We are expecting to have those results by 
the end of this fiscal year, so by September 30th of this year.
    Ms. Herseth Sandlin. Can you elaborate for just a moment on 
the breadth of the survey? How many questions are in the survey 
and do they go beyond just the level of satisfaction and get in 
more depth?
    Mr. Pedigo. Yeah. I do not recall the exact number of 
questions, but it is a fairly lengthy survey. We are attempting 
to elicit feedback on all aspects of the grant process.
    We are dividing the universe into two groups. One would be 
those who have used the grant within the last year. The other 
would be a group of veterans who have been determined eligible 
for the grant based on their disability, but have not actually 
applied for the grant.
    The reason we are including that second group is that we do 
have a pretty large number of veterans who have eligibility, 
but have never used the grant. So we want to find out why so 
that we can perhaps adjust some aspect of our program to 
accommodate them.
    Ms. Herseth Sandlin. What type of outreach does the VA do 
to inform potential applicants and their families that the 
grants exist?
    Mr. Pedigo. There are briefings for servicemembers. When 
they get out of the military service, there is a transition 
assistance briefing and then there is a special briefing for 
those who are disabled, called the disabled transition 
assistance briefing. That is frequently where veterans first 
learn that the Specially Adapted Housing grant is available.
    In addition to that, we have VA staff stationed at Walter 
Reed and Bethesda and they meet with all the incoming patients. 
That is their opportunity to discuss the various benefits 
available to that veteran, including the Specially Adapted 
Housing grant.
    When a veteran applies for disability compensation, the 
process requires our Compensation and Pension Service staff at 
VA to automatically address whether or not they qualify for the 
grant even though they may not have applied for the grant.
    If, in the process of determining the level of disability, 
it is determined that that veteran is eligible for the grant, 
then the Loan Guaranty Division, which administers the grant 
program, is notified and we then make contact with that veteran 
to begin the grant process.
    Ms. Herseth Sandlin. Okay. So there are a few layers in 
which they would learn of the availability of the grant. I am 
interested in the fact that you determine eligibility.
    The loan service agency is notified and then when you say 
you make contact, is that by letter? Is that by phone call? How 
is that contact made and do you have assurance out of each of 
your offices that those contacts are not only attempted to be 
made, but that the contact is ultimately made?
    Mr. Pedigo. Yes. We follow up very closely on that. And 
there is a very specific requirement that within 30 days of 
receiving notification from the Veteran Service Center, which 
processes the disability claims, that we must call the veteran 
or make contact in some other way and set up a personal 
interview.
    Our approach is to go to the veteran's house in every case 
where it is feasible and sit down and have an in-depth 
discussion with the veteran about the benefits and requirements 
attendant to the Specially Adapted Housing program.
    At that interview, if the veteran indicates that he or she 
desires to go forward with the grant, then we begin the process 
of formally processing that veteran's request.
    If the veteran indicates that he or she is not ready to use 
the grant, then we tell the veteran that we will be following 
up with them periodically. And we do have a requirement, for 
those who have chosen not to use the grant after the interview, 
we must contact them periodically and ask them if they are now 
ready to use the grant.
    Ms. Herseth Sandlin. Mr. Boozman?
    Mr. Boozman. Thank you.
    You mentioned that the last survey was in 2003. Can you 
give us an idea of the numbers, the increase, now that we are 
in Iraq and Afghanistan, compared from 2003 to 2007. Can you 
give us an idea number-wise what are the demands on your 
service?
    Mr. Pedigo. Are you asking about whether there has been an 
increase in the number of grants?
    Mr. Boozman. Well, I would think that there has been an 
increase in the number of people wanting grants just based on 
the fact that we have a lot of injured service people coming 
back now.
    I guess what I am trying to do is figure out what kind of 
impact that has had on your ability working hard to get these 
things done. Has the lag time increased a lot in the last three 
or four years compared to how it was or do you have the 
resources that you need to get these things done in a timely 
way?
    Mr. Pedigo. In the last four to five years, we have seen an 
increase in the number of applications for grants. And up until 
fiscal year 2005, we were seeing an increase in the actual 
number of grants made. In fiscal year 2006, that fell off a 
little bit. It fell from about 530 down to the high 400s. So 
there was a slight decrease and we are not sure why that took 
place.
    However, with the addition of the Public Law 109-233 
authority to provide multiple grants to recipients, we now 
definitely have a dramatic increase in workload. We have 
received more than 4,200 requests for subsequent use of the 
grant since we sent that letter out in December of 2006.
    We have an assurance from our operations staff that the 
necessary resources to handle that additional work will be 
available. And so, at the present time, we do not have any 
serious concerns about being able to handle the additional 
workload in a timely manner.
    Mr. Boozman. As these things come through, is there any 
priority to them? For instance, does a new person that is 
inquiring versus somebody that is already in the system, is 
there any prioritization to these at all?
    Mr. Pedigo. We are now giving some priority treatment to 
the seriously wounded from Operation Iraqi Freedom and 
Operation Enduring Freedom.
    In the grant program, we are contacting them within 24 to 
48 hours after receiving notice that they are eligible for the 
grant in order to get the process started. For veterans who 
were not in that conflict, we are still processing their grants 
in the same fashion.
    Mr. Boozman. Good. Thank you very much. I would add just a 
couple things.
    As we heard testimony earlier, the fact that we have the 
vision, based on a very dramatic decrease in vision compared to 
the standard that is used. And then also not figuring in field 
loss and things like that can tremendously affect your--you can 
have 20/20 vision, but if the most that you can see is a patch 
three inches wide, then you are blind probably more so than 
somebody that had 20/200 vision. So, again, I hope we can work 
with you again on trying to get some of those things cleaned 
up.
    The other thing I would like to do is congratulate Ms. 
Herseth Sandlin for really championing this cause. This is 
something that is very important. And like so many other 
things, we are just finding that there is some little things 
that, again, in trying to be helpful to the agency, we need to 
tweak and get this thing even more effective than it is now.
    Thank you.
    Mr. Pedigo. Yes, sir. And thank you for your support.
    Ms. Herseth Sandlin. I want to thank Mr. Boozman for his 
comments. I know he may have to leave to catch a flight, but he 
may have some more questions so we will keep the record open.
    I did want to pursue a couple of points. Is it true that 
Congress made a change in 2003 as it related to active-duty 
servicemembers being eligible to access the grants; is that not 
correct?
    Mr. Pedigo. That is correct.
    Ms. Herseth Sandlin. Can you assure the Subcommittee that 
any glitches have been worked through there because we have had 
a recent example that I am aware of and it leads me to think 
that there may be other examples? But, again, the pool of these 
individuals is relatively small.
    Given the increase in the workload that you described, I 
just want to make sure that any materials that are shared among 
the counselors and the different offices around the country 
that everyone is clear now that Congress made this change and 
that they are eligible because we had a little bit of a glitch 
for a family that I represent that initially, when they went to 
apply, were told you need the VA disability rating before we 
can do this.
    They explained that her husband, her son was still on 
active duty and that this congressional change had been made 
and there was some miscommunication, misunderstanding, or at 
least a need for clarification in the St. Paul office that I am 
aware of. I just hope that all of the offices now are very 
clear that active-duty servicemembers are eligible to apply for 
the grants and do not need the VA disability rating to do so.
    Mr. Pedigo. Well, as I understand, they must be rated 
eligible for the benefit. In other words, they must meet the 
statutory criteria for either the $50,000 grant or the $10,000 
grant. And that decision has to be made before we can proceed 
with the processing of the grant.
    So even though it is a servicemember, that individual still 
has to meet the basic eligibility qualifications.
    Ms. Herseth Sandlin. Does the basic eligibility 
qualification include a disability rating from the VA because 
they cannot get that until they are discharged?
    Mr. Pedigo. Well, I understand that there are processes in 
place where they can actually get a quick rating, a memorandum 
rating.
    I am not familiar with this case. I would be very happy to 
look into it. In fact, I would like to look into it because it 
troubles me that somebody who might have been eligible was 
initially told they were not. Maybe we do need to communicate 
this three-year-old requirement better, to those who do the 
eligibility ratings in the Veterans Benefits Administration 
(VBA).
    Ms. Herseth Sandlin. I would appreciate the opportunity to 
share some of the details of this case with you. They have 
ultimately gotten approved, but it was an arduous process. This 
family has already been through an awful lot with the 
Department of Defense, with the VA, and it is a traumatic brain 
injured soldier.
    We will follow up and we will talk with you more about the 
step-by-step process that they underwent so that there is 
either a need for clarification on your end or the information 
that has been given to the families where we need to clarify 
some things, so that everyone understands what the eligibility 
requirements are and that everyone is fully updated on the 
changes that were made to the law.
    In terms of the traumatic brain injured soldiers and Mr. 
Zampieri's testimony, could you respond, and Mr. Boozman 
touched on it as well, but the $50,000 grant versus the $10,000 
grant. I think Mr. Gonsalves indicated as well that they worked 
with someone from PVA, the Paralyzed Veterans of America, to go 
back to the counselor and there is a different interpretation?
    In terms of continuity of interpretation, if someone is 
initially denied or told, no, you are only eligible for the 
$10,000 grant, and he was describing the individual who is an 
amputee of both arms, one above the elbow, one below. What kind 
of guidance have you issued since Operation Iraqi Freedom and 
Operation Enduring Freedom about the types of injuries that we 
are seeing that might help clarify to the counselors to ensure 
a more consistent interpretation of the eligibility 
requirements?
    Mr. Pedigo. I think it might be useful if I could briefly 
explain how we are set up at VA, and I hope this does not sound 
too much like an explanation of a stovepipe operation.
    But the Loan Guaranty program, of which I am Director, is 
responsible for processing the Specially Adapted Housing grant. 
We get involved once the eligibility determination is made by 
the Veteran Service Center, which is a separate element of the 
Veterans Benefits Administration.
    This is the part of the Veterans Benefits Administration 
that looks at all disability requests from veterans and then 
rates the disabilities and makes the eligibility determination 
as to the level of disability. If it rises to the level where, 
based on the statutory criteria, they believe that this veteran 
is eligible for the Specially Adapted Housing grant, they 
indicate that in their rating decision and hand that rating 
decision to our Loan Guaranty Division where the Specially 
Adapted Housing grant process then begins.
    In listening to the explanation of the veteran who had lost 
both arms, one below the elbow and one above the elbow, it does 
not surprise me because, when you get into rating disabilities, 
sometimes there is a very fine line between what would meet the 
statutory requirement for a grant and what would not.
    We have a lot of areas in the Disability Compensation 
program where judgment decisions have to be made. There are 
approximately 9,000 employees who are involved in making these 
decisions and it is sometimes very difficult to achieve a very 
high level of consistency even though that is our goal.
    We spent a lot of time training these employees to make 
sure that they view things the same way, but sometimes due to 
the nature of the injury or perhaps due to the ability of the 
employee, we do not always achieve that. And I think that may 
have been the problem in the case that was discussed earlier.
    But, yes, we have a very active training program to make 
sure that all of our staff are familiar with the requirements 
and that they apply those in a consistent manner.
    Ms. Herseth Sandlin. Let me ask a few questions with regard 
to the fact that we have multiple grants now. The total 
aggregate dollar value that a veteran can receive is how much?
    Mr. Pedigo. Well, currently, it is $50,000 for the 
Specially Adapted Housing grant and $10,000 for the Special 
Home Adaptations. And that was in the law that was passed in 
2003 when it went from $48,000 to $50,000.
    Ms. Herseth Sandlin. Right. But if they can use up to three 
grants, I am looking for the total aggregate amount.
    Mr. Pedigo. The aggregate is $50,000 for the large grant. 
So let us take an example of a veteran who used it--let us take 
somebody in 1948 because we do have some veterans who used it 
in 1948 who are still living.
    The maximum then was $10,000, so they could have used 
$10,000 in 1948, which means they would be able to come back 
and use the difference between $10,000 and $50,000 or $40,000. 
And, the same would apply with the $10,000 grant. They would 
have the difference between what they previously used and what 
the current statutory maximum is.
    Ms. Herseth Sandlin. Okay. Can you remind me because I know 
in your statement, you had mentioned that 98 percent of grant 
recipients use the full amount available, the $50,000? How many 
of those are using three different grants versus how many are 
using it all up in the initial grant?
    Mr. Pedigo. I think I can safely say that all of the 
veterans who were in that universe that I mentioned only used 
it one time because the multiple use did not go into effect 
until last June. All of those veterans that I mentioned in the 
98 percent group only used it one time.
    Ms. Herseth Sandlin. You acknowledge that there has been an 
increase in your workload, but can you describe for me again 
how we are going to assure that you are going to get the 
resources necessary to meet the demands of the increased 
workload and the commensurate training that is going to be 
associated with that?
    Mr. Pedigo. Yes. I have already had several discussions 
with the Associate Deputy Under Secretary for Field Operations 
who controls staffing in our field offices. I have indicated to 
him that we do have a dramatically increasing workload. He 
acknowledged that and assured me that whatever staffing we 
needed to handle this increased workload would be made 
available.
    With respect to the training, last summer we had a one-week 
training session in St. Louis for approximately 70 Specially 
Adapted Housing agents. This was a nuts and bolts training 
session where we went over all the requirements for the 
program, the goal being to make sure that everybody understands 
those requirements in the same way.
    We have periodic conference calls with our field offices. 
In fact, each quarter, we have a conference call where on 
occasion Specially Adapted Housing issues are discussed.
    Within the next month, we will be putting out a complete 
revision to our Specially Adapted Housing Handbook and this 
will provide updated guidance presented in a reader-focused-
writing format so that there will be no question as to what 
that policy is.
    Ms. Herseth Sandlin. Okay. And then just a final question 
or two on the timetable here. I know Mr. Catalde in the first 
panel, you may have heard him ask us to try to get data that 
looked at the time of the application for the Specially Adapted 
Housing grant to when construction on the project actually 
began.
    I do not know if you track that data. If you do, that would 
be helpful to see that. But what is the normal wait time for 
the processing of each grant?
    Mr. Pedigo. Well, it is divided into pieces. You have the 
eligibility determination which I talked about earlier. And 
that process can take anywhere from a few weeks to six to eight 
months because of the complexities involved in getting all the 
medical information necessary, getting the medical examination 
for the veteran, and then making the decision.
    Then, when it is handed off to the Loan Guaranty program 
for the processing of the grant, we have a period of time where 
we have to meet with the veteran, arrange for the veteran to 
provide the plans and specifications for the home that he or 
she wants to build or remodel.
    Once we receive those plans and specifications, we have to 
have them approved. That segment of the process could take 
anywhere from two to four months.
    And so then the final phase would be from the point where 
we approve the project to the point where we actually disburse 
the money and the project is completed. And that phase on 
average takes about eight months.
    Ms. Herseth Sandlin. From approval to disbursement to 
completion?
    Mr. Pedigo. Yes.
    Ms. Herseth Sandlin. Another eight months?
    Mr. Pedigo. Yes. But let me further explain that. This is 
not all VA time. In fact, most of this is non-VA time. It 
involves a contractor sometimes building a home from the ground 
up. In other cases, the substantial remodeling of an existing 
home. So for anyone who has ever built a home or even remodeled 
a home, they know that that process can be very, very lengthy 
and it is not always a smooth process.
    I know it sounds like an exceptionally long period of time 
to accomplish the completion of the grant, but when you look at 
all the complexities that are built into the process just by 
the nature of what is being done, I believe that you can see 
that for the most part the time is not excessive.
    Ms. Herseth Sandlin. Does the survey that you have recently 
sent out include any questions with regard to the level of 
satisfaction as it relates to the timeliness of the process 
itself?
    Mr. Pedigo. Yes.
    Ms. Herseth Sandlin. Okay. If you will share those with the 
Subcommittee as soon as you receive those in September, we 
would appreciate it.
    Mr. Pedigo. We certainly will.
    [Executive summaries of the survey appear on p. 57.]
    Ms. Herseth Sandlin. Finally, on the Temporary Residence 
Adaptation grant, as you know, that is expected to terminate 
June 15, 2011. Do you have any thoughts that you might be 
willing to share at this point whether or not you think that it 
should be extended beyond 2011 given your experience and the 
utility of that grant for the veterans who have applied?
    Mr. Pedigo. Well, first, let me address the utility. We 
have had probably fewer than five of these grants since 
implementation. So we do not have a lot of experience to go on.
    I think the concept of a Temporary Residence grant is good 
and I think that it is good regardless of whether we are in a 
period of war. So at this point, I would say that it should 
probably be extended beyond 2011.
    The way it is presently configured, there would be no cost 
factor because they are simply going on the entitlement that 
they would have, either $50,000 or $10,000. So I do not think 
there would be any PAYGO issues if it were to be extended 
beyond 2011.
    Ms. Herseth Sandlin. Thank you very much. There may be 
another question or two that I would be submitting to you as 
well as other members of the Subcommittee as we keep the record 
open. I appreciate again your patience accommodating the 
schedule and the information you have provided.
    I will, with my office and Subcommittee staff, be directly 
following up with you with regard to the particular case that I 
referenced earlier just to see if, even though it is somewhat 
unique because it is an active-duty servicemember, it may be 
helpful as we have others who are returning that may have 
suffered these traumatic brain injuries that are similarly in 
this limbo between their discharge from active duty and just 
work through any glitches that might still remain.
    I appreciate your willingness to work with me on that.
    Mr. Pedigo. Thank you.
    Ms. Herseth Sandlin. Okay. Thank you and everyone for their 
statements this afternoon. We value the interest that people 
have in the topic, the expertise that they bring to bear, and 
we will look forward to following up on the testimony that was 
presented today.
    So with that, the hearing stands adjourned.
    [Whereupon, at 5:45 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

         Prepared Statement of Hon. Stephanie Herseth Sandlin,
            Chairwoman, Subcommittee on Economic Opportunity

    With the increasing number of disabled veterans returning home from 
Iraq and Afghanistan, the need for specially adaptive housing has 
become more important. Every year we have more veterans returning home 
with severe injuries, making it difficult for them to make an easy 
physical transition back home. Our intent in this hearing is to examine 
the VA's Specially Adaptive Housing program, explore the problems that 
our Nation's veterans face and see what can be done to alleviate these 
problems.
    As some of you may know, I have introduced legislation that will 
hopefully address some of the needs of our returning brave men and 
women of the armed forces. I believe that this legislation will be a 
critical component in assisting these disabled veterans and 
servicemembers, and expand the resources available to give them a level 
of independent living they may not normally enjoy.

    <bullet>  H.R. 1315 would provide specially adaptive housing 
assistance to disabled servicemembers residing temporarily in housing 
owned by a family member. This assistance, allowable up to $14,000, may 
be used to adapt the family member's home to meet the veteran's special 
needs at that time.
    <bullet>  H.R. 675, the Disabled Veterans Adaptive Housing Act 
would increase the amount of assistance available to disabled veterans 
for specially adaptive housing grants. Increase the maximum amount from 
the current $50,000 to $60,000.

    In my home State of South Dakota, I have had interactions with 
wounded and disabled veterans seeking ways to ease the physical 
transition from hospitals with disabled access to their current 
residences. One of my constituents, who was injured during military 
operations in Iraq and remains on active duty, has faced difficulty 
securing adaptive housing grants because he is not yet incorporated 
into the VA system. In addition to difficulties he has faced because of 
his active duty status, he, as well as many other injured 
servicemembers not yet enrolled in the VA, could potentially benefit 
from changes I have proposed in H.R. 1315.
    I look forward to working with Ranking Member Boozman and Members 
of this Subcommittee to ensure that our most critically wounded 
servicemembers are provided both proper healthcare to help them recover 
from their injures, but also adequate benefits to modify their homes to 
achieve independence and comfort when they return home.

                                 <F-dash>
                Prepared Statement of Hon. John Boozman,
    Ranking Republican Member, Subcommittee on Economic Opportunity

    Good afternoon. The Specially Adapted Housing grant program is 
relatively small and not as well-known as programs such as the GI Bill. 
But it is vitally important to those who qualify for the program, 
whether as a result of combat or the effects of diseases such as 
diabetes. That is why I want to thank the Chairwoman for holding this 
hearing.
    I also thank our witnesses in advance for their testimonies on this 
important program. I note that the Chairwoman has a bill, H.R. 675 to 
increase the maximum grant amounts, and would like to ask her to add me 
to the list of cosponsors.
    Legislation affecting veterans' programs, including those designed 
to help our seriously disabled veterans, must comply with the budget 
rules on mandatory funding. I hope Mr. Pedigo can give us an estimate 
of the PAYGO costs for that bill in case we can identify some offsets 
down the line and I will work with the Chairwoman to find whatever 
offsets are needed to pass her bill.
    Again, thanks to all and I look forward to hearing from today's 
witnesses.

                                 <F-dash>
                   Prepared Statement of Carl Blake,
      National Legislative Director, Paralyzed Veterans of America

    Chairwoman Herseth Sandlin, Ranking Member Boozman, members of the 
Subcommittee, on behalf of Paralyzed Veterans of America (PVA), I would 
like to thank you for holding this hearing on an issue of such great 
importance to PVA and its membership. Since its founding in 1946, PVA 
has advocated for the idea that a disabled veteran should have the same 
access to and use of his or her home as a nondisabled veteran.
    In 1946, a group of veterans that would eventually become the New 
York Chapter of PVA requested help from the American Institute of 
Architects (AIA) to design housing for paralyzed veterans. Six 
volunteer architects completed preliminary blueprints calling for 
special bathrooms, bedrooms, work, and exercise rooms and provided 
construction details for doorways, corridors, windows, closets, and 
garages. Requests for these new accessible home plans came from all 
over the country.
    The following year, PVA lobbied Congress for new legislation that 
would provide a federal grant to make homes accessible. We argued that 
paralyzed veterans were forced to remain in hospitals because their 
former homes could not accommodate wheelchairs. In 1948, the U.S. 
Congress passed Public Law 702 (P.L. 702). Under this law, the Veterans 
Administration--now the Department of Veterans Affairs (VA)--approved 
$47 million for the construction of wheelchair-accessible homes.
    Through the years, the grant has been adjusted in an attempt to 
keep pace with the rising cost of home construction. However, it has 
been done in a seemingly random fashion, with no set timetable for 
periodic adjustments. As a result, it has lagged behind the cost of 
construction. Because adjustments to the grant are dependent on 
legislation from Congress to make the change, construction costs and 
inflation have rapidly outpaced this process.
    Public Law 108-183, passed in 2003, provided the last adjustment to 
the Specially Adapted Housing grant for eligible severely disabled 
veterans. At that time it was increased to $50,000 from $48,000. 
Meanwhile, construction material costs for single-family homes have 
significantly increased during that time. According to the National 
Home Builders Association, from 2002 to 2005, the average construction 
cost increased from approximately $76 per square foot to more than $90 
per square foot.
    Most, in fact nearly all, Specially Adapted Housing grants are used 
for building new homes because it is difficult to find an existing home 
that can be made totally accessible, and be done at a reasonable cost. 
It is a simple fact that there are significant cost savings by building 
accessibility into a new home rather than modifying an existing home. 
It is estimated that new construction is 10 to 15 percent less 
expensive than renovating an existing structure for the same features. 
When designing a new home, there is little or no cost difference 
between adding 36 inch doors for accessibility as opposed to the 
standard 30 inch doors. However, if a veteran chooses to remodel an 
existing home with standard doors and add 36 inch doors, it costs a 
great deal of money because new framing and structural changes must be 
made.
    A large bathroom and kitchen for maneuverability is just the 
beginning for accessibility. In order to meet the VA requirements for 
the Specially Adapted Housing grant, the home must have two accessible 
entryways with sidewalks that are flat. The interior doors must be a 
minimum of 36 inches wide and hallways must be a minimum of 48 inches 
wide. Also, along with obvious usable accessibility features, the 
bathroom walls must be reinforced for grab bars. All of this 
information is contained within the VA's design guideline--VA Pamphlet 
26-13. Although it was published in 1978, those guidelines remain 
relevant, even today. In fact, the VA's guidelines tend to be more 
stringent than the Federal Fair Housing accessibility guidelines.
    Based on information from our architectural department, PVA 
recommends that the grant be increased by 20 percent to $60,000. Our 
architectural staff estimates that building a fully accessible bathroom 
alone for the needs of a high-level spinal cord injured veteran could 
cost anywhere from $30,000 to $50,000. Making all other normal living 
areas in the home--kitchen, bedroom, living room--more accessible would 
add significantly more cost.
    PVA members are the highest users of this very important grant. 
This grant allows veterans with severe service-connected disabilities 
to realize the dream of owning their own home when they otherwise may 
not have had the opportunity. PVA also believes an equivalent increase 
in the grant for veterans with service-connected blindness should be 
made from $10,000 to $12,000.
    In accordance with the recommendations of The Independent Budget, 
we also urge this Subcommittee to consider legislation that would 
require the VA Secretary to establish a residential home cost-of-
construction index to be used to automatically adjust the amount of 
these grants each year. As the housing market has continued to boom, 
these grants have not kept pace. Without an annual adjustment to the 
grants, inflation will continue to erode their purchasing power.
    In recent years, a number of improvements have been made to the 
Specially Adapted Housing grant to allow for easier access to the 
benefit by both eligible service-connected disabled veterans and active 
duty servicemembers who will become eligible. PVA is particularly 
pleased that access to the grant was improved so that an active duty 
servicemember awaiting discharge from the military can obtain the 
grant, at the determination of the Secretary, so that he or she can 
begin planning the purchase of a new, accessible home even before he or 
she leaves the hospital.
    P.L. 109-233, the ``Veterans' Housing Opportunity and Benefits 
Improvement Act of 2006'' allowed disabled veterans who are residing 
with a family member to receive a grant up to $14,000 to modify the 
family member's home for accessibility needs. PVA believes that this 
option should be extended to severely disabled servicemembers who are 
still on active duty awaiting discharge from the military. A similar 
provision already exists for the full SAH grant, as mentioned 
previously.
    I have personally experienced the difficulty created by this 
particular situation. After incurring a spinal cord injury while on 
active duty, I conducted rehabilitation at the VA medical center in 
Richmond. My wife and I were not immediately able to find a place to 
live due to our changed financial situation, so we lived with my 
parents for a couple of months. So that I could gain access to their 
house while using a wheelchair, we paid to have a ramp installed and 
have a bathroom modified for my needs. This proved to be a substantial 
cost, particularly with regards to making improvements to the existing 
bathroom. Many young men and women could benefit from this adaptive 
housing assistance.
    PVA would like this Subcommittee to consider legislation similar to 
S. 1096, the ``Veterans' Housing Benefits Enhancement Act.'' This bill 
would allow for specially adapted housing assistance for disabled 
veterans with severe burns. Severe burns are one of the signature 
wounds of the Iraq war. Living with this condition after being 
discharged from a hospital could require a precise temperature control 
system in a home, along with an air filtration system. A water 
purification system may also be required. All of these modifications 
take time and are very costly. This bill will give the servicemember 
financial assistance to allow them to make these critically needed 
modifications.
    PVA would also like to make an additional recommendation, in 
accordance with the policy contained in The Independent Budget for FY 
2008. Like the needs of other families today, veterans' housing needs 
tend to change with time and new circumstances. An initial home may 
become too small when the family grows or become too large when 
children leave home. Changes in the nature of a veteran's disability 
may necessitate a home configured differently and changes in the 
special adaptations. These things merit a second grant to cover the 
costs of adaptations to a new home. We hope that the Subcommittee will 
consider this additional benefit as it seeks changes or improvements to 
the Specially Adapted Housing grant.
    Chairwoman Herseth Sandlin and Ranking Member Boozman, PVA would 
once again like to thank you for the focus you have placed on this 
issue. Ms. Herseth Sandlin, we particularly appreciate your strong 
advocacy to make these needed changes to the Specially Adapted Housing 
grant, and we hope that your Subcommittee will expeditiously consider 
your legislation, H.R. 675, as its provisions would further improve 
this benefit that is critically important to the most severely disabled 
veterans.
    Thank you again. I would be happy to answer any questions that you 
might have.

                                 <F-dash>
                Prepared Statement of Brian E. Lawrence,
  Assistant National Legislative Director, Disabled American Veterans
    Madame Chair and Members of the Subcommittee:

    On behalf of the 1.3 million members of the Disabled American 
Veterans (DAV), I appreciate the opportunity to present our views on 
the Specially Adapted Housing program.
    Section 2101(a) of title 38, United States Code, authorizes the 
Department of Veterans Affairs (VA) to provide assistance in the form 
of a Specially Adapted Housing grant to veterans who have incurred 
service-connected disabilities consisting of loss or loss of use of 
both lower extremities, total blindness together with loss or loss of 
use of one lower extremity, or loss or loss of use of one lower 
extremity together with either the loss or loss of use of an upper 
extremity or other organic disease that requires use of a wheelchair or 
the use of braces, crutches, or canes. The purpose of this grant is to 
enable severely disabled veterans to construct, purchase, or remodel 
homes with structural features to accommodate special needs. Section 
2102 of title 38, United States Code, limits the amounts VA may provide 
to such veterans. Currently, VA may approve a grant of not more than 50 
percent of the cost of building, buying or remodeling adapting homes or 
paying indebtedness on those homes already acquired, up to a maximum of 
$50,000. VA may approve a grant for the actual cost, up to a maximum of 
$10,000, for adaptations to a veteran's residence that are determined 
by VA to be reasonably necessary. The grant also may be used to help 
veterans acquire a residence that already has adaptations for the 
veteran's disability.
    The grant was last increased by Public Law 108-183, enacted 
December 16, 2003. Because the cost of construction has risen over the 
past four and one-half years, the current $50,000 maximum amount is 
insufficient to allow severely disabled veterans to make all necessary 
adaptations and modifications. During the most recent DAV National 
Convention, our members voted to again adopt a longstanding resolution 
calling for legislation which would provide a realistic increase in the 
Specially Adapted Housing grants, and would provide for automatic 
annual adjustments based on increases in the cost of living. Our 
resolution coincides with the recommendations of The Independent Budget 
(IB), which is a budget and policy document that sets forth the 
collective views of the DAV, AMVETS, the Paralyzed Veterans of America, 
and the Veterans of Foreign Wars of the United States.
    Madame Chair, the DAV fully supports the legislation you 
introduced, H.R. 675 the Disabled Veterans Adaptive Housing Improvement 
Act, which would increase the $50,000 grant to $60,000, and increase 
the $10,000 grant to $12,000. Additionally, the bill would provide for 
automatic annual adjustments based on the national average increase in 
the cost of residential home construction. We urge that the proposals 
contained in H.R. 675 be favorably acted upon by the Subcommittee.
    Madame Chair and Members of the Subcommittee, the DAV appreciates 
the opportunity to present our views on these bills. We look forward to 
our continued work with the Subcommittee to serve our Nation's disabled 
veterans and their families.

                                 <F-dash>
             Prepared Statement of Thomas Zampieri, Ph.D.,
     Director of Government Relations, Blinded Veterans Association

INTRODUCTION
    Madame Chairwoman and members of the House Veterans Affairs 
Subcommittee on Economic Opportunity, on behalf of the Blinded Veterans 
Association (BVA), thank you for this opportunity to present BVA's 
legislative concerns on the topic of Department of Veterans Affairs 
(VA) Specially Adaptive Housing programs. BVA is the only 
congressionally chartered Veterans Service Organization exclusively 
dedicated to serving the needs of our Nation's blinded veterans and 
their families. BVA has concerns over the lack of improvement, in 
recent years, of the Veteran Benefits Administration's ability to 
provide the adaptive housing programs necessary to meet the needs of 
disabled veterans seeking such resources. With the growing numbers of 
wounded in both Operation Iraqi Freedom (OIF) and Operation Enduring 
Freedom (OEF) who are entering the VA healthcare and benefits system 
today, and with the issue of Traumatic Brain Injury (TBI) also of 
paramount concern to our members, BVA appreciates this hearing as a 
significant step as we work together to improve the system.
    As of May 22 of this year, just two weeks ago, there were 25,549 
traumatic combat injuries, of which 7,267 required air medical 
evacuation from Iraq. What has not been as widely reported is that 
another 6,991 personnel injured in nonhostile action have also been 
evacuated from OIF and OEF operations. Such numbers reflect the 
probability that an ever increasing number of future veterans will 
depend on adaptive housing grants in order to live independently in 
their own homes. More than 1,880 of the total TBI-injured have 
sustained moderate enough injuries that they are experiencing 
neurosensory complications. Epidemiological TBI studies find that about 
30 percent have associated visual disorders of diplopia, convergence 
disorder, photophobia, ocular-motor dysfunction, and an inability to 
interpret print. Some TBIs result in legal blindness and other 
manifestations known as Post-Trauma Vision Syndrome (PTVS). Like other 
generations of disabled veterans who have desired to continue living in 
their own homes, the current generation of OIF and OEF veterans 
deserves the same opportunity. It is therefore important that economic 
adjustments be made to the current system to keep pace with 
inflationary costs of construction labor and materials. If disabled 
veterans are not able to make adaptive changes to their homes, they run 
the risk of falls and injuries that result in expensive emergency room 
visits and costly hospital admissions.
    BVA would like to stress again to this Committee that data compiled 
between March 2003 and April 2005 found that 16 percent of all 
causalities evacuated from Iraq were due directly to eye injuries. 
Walter Reed Army Medical Center has surgically treated approximately 
700 soldiers with moderate to severe visual injuries while the National 
Naval Medical Center has a list of 450 individuals with eye injuries 
requiring surgery. VA reports that 46 such servicemembers have attended 
one of the ten VA Blind Rehabilitation Centers (BRCs), 89 are enrolled 
in local VA Blind Visual Impairment Service Teams (VISTs), and others 
are in the process of being referred. It should be very obvious to 
members of this Committee that a new generation of blinded or visually 
impaired low vision veterans will require lifetime specialized programs 
to meet their needs. Such rehabilitation programs must be very 
individualized for such veterans and their family members, as has been 
the case for an older generation of veterans who have recently suffered 
from age-related degenerative blindness.

CURRENT SPECIALLY ADAPTED HOUSING SERVICES
    Home Improvements and Structural Alterations (HISA). VA currently 
has Specially Adapted Housing grant programs to assist disabled 
veterans in the construction of an adapted home or the modification of 
an existing home. The program goal is for veterans to live 
independently in a safe environment. For those with service-connected 
blindness, the current grant amount is $4,100. For the nonservice-
connected blinded veterans, the amount is $1,200. These amounts have 
not changed in more than a decade. Such grants can be used for any home 
improvement that is necessary for the continuation of treatment or 
rehabilitation. It can also be utilized for disability access to the 
home and essential lavatory/sanitary facilities. A HISA grant is 
available to veterans who have received a VA medical determination that 
improvements and structural alternations are necessary or appropriate 
for successful, cost-effective treatment of their disability. For 
example, legally blinded veterans frequently require additional 
lighting for maximum utilization of their remaining vision.
    Specially Adapted Housing (SAH). The SAH grant, currently limited 
to $50,000 annually, is used to assist veterans with mobility 
throughout their homes. It can be used for minor construction projects. 
Eligible are service-connected veterans with a permanent and total 
disability due to one of the following:

    <bullet>  The total loss, or loss of use, of both lower extremities 
as to preclude locomotion without the aid of braces, crutches, canes, 
or a wheelchair.
    <bullet>  Blindness in both eyes (having only light perception), 
plus a loss or loss of use of one lower extremity.
    <bullet>  The total loss, or loss of use, of one lower extremity 
together with (1) residuals of organic disease or injury, or (2) the 
loss, or loss of use, of one upper extremity which so affects the 
functions of balance or propulsion as to preclude locomotion without 
the aid of braces, crutches, canes, or a wheelchair.
    <bullet>  The loss, or loss of use, of both upper extremities such 
as to preclude use of arms at or above the elbow.

    Special Home Adaptation Grant (SHA). BVA's experience has been that 
very few blinded veterans meet the above criteria to obtain the SAH 
grant. The Special Home Adaptation (SHA) grant, on the other hand, 
helps service-connected veterans with specific mobility problems within 
the home. The SHA grant is for $10,000. The disability must be 
permanent and total due to:

    <bullet>  Blindness in both eyes with a 5/200 visual acuity or 
less, or
    <bullet>  Anatomical loss or loss of both hands and extremities 
below the elbow.

RECOMMENDATIONS AND CONCLUSIONS
    BVA supports the Independent Budget recommendations that Congress 
increase Specially Adapted Housing grants and provide for future 
automatic annual adjustments indexed to the rise in the cost of living. 
BVA supports H.R. 675, the ``Disabled Veterans Adaptive Housing 
Improvement Act.'' The bill would increase an SAH grant from the 
current $50,000 to $60,000 and would change the SHA grant from $10,000 
to $12,000. BVA requests that a HISA grant for service-connected 
veterans be increased from $4,100 to $5,400 and that the same grant for 
nonservice-connected be raised from $1,200 to $2,400.
    Chairwoman Herseth Sandlin and Ranking Member Boozman, BVA 
expresses thanks to both of you for this opportunity to present our 
testimony for the record. We are concerned that injured veterans and 
their family members from OIF and OEF operations, as well as those from 
previous conflict eras, are not currently able to access the updated 
adaptive housing services necessary to live in their own homes once 
they have successfully completed the appropriate rehabilitation 
programs. This lack of access will continue unless changes are soon 
made. The future strength of our Nation depends on the willingness of 
young men and women to serve in our military. This willingness depends, 
in turn and at least in part, on the willingness of our government to 
meet its full obligation to them as veterans. Waiting will only 
increase the problems and expenses associated with this growing policy 
problem.

                                 <F-dash>
            Prepared Statement of Brian Catalde, President,
        National Association of Home Builders, and President and
  Chief Operating Officer, Paragon Communities, El Segundo, California

Introduction
    Chairwoman Herseth Sandlin, Ranking Member Boozman, distinguished 
Members of the Subcommittee on Economic Opportunity, on behalf of the 
more than 235,000 members of the National Association of Home Builders 
(NAHB), thank you for this opportunity to testify today on the 
important subject of the U.S. Department of Veterans Affairs (VA) 
Specially Adaptive Housing program. My name is Brian Catalde. I am a 
homebuilder from El Segundo, California and NAHB's 2007 President.
    I want to thank you for holding this hearing to bring focus to the 
VA's Specially Adaptive Housing program and to explore ways this 
program can be expanded or improved to better serve the thousands of 
severely injured veterans whose homes must be modified in ways that 
will allow them to live independently.
Background
    The VA's Specially Adaptive Housing (SAH) program provides vital 
assistance for construction or remodeling of an accessible home for 
those veterans who live with serious service-connected disabilities.
    Since the beginning of the SAH program in 1948, over 34,000 
veterans have used their eligibility resulting in distribution of grant 
funds totaling over $650 million to either build new homes or adapt 
existing homes. The program has taken on additional significance 
recently as a way to help veterans who have suffered serious injuries 
as a result of service in Iraq and Afghanistan, however, the SAH grants 
are available to serve all veterans who qualify.
    Grants are provided to veterans who require the use of prostheses, 
braces, crutches or a wheelchair to ambulate. Generally, if a veteran 
is determined to be 100 percent permanently disabled through his or her 
service and requires a wheelchair, VA can provide SAH grant assistance 
to make a home wheelchair-accessible. The amount of the grant may be up 
to 50 percent of the total cost of adapting housing to accommodate that 
disability, with a current maximum of $50,000. If the veteran is 
purchasing an adapted home, a VA-guaranteed loan can be used to fund 
the remaining cost of the home.
    Once VA determines that a veteran is eligible for a grant based on 
the nature and extent of the disability, VA field staff work closely 
with the veteran and the contractor to resolve impediments of existing 
features and architecture and to redesign the home for wheelchair 
accessibility. In many cases, the veteran desires to design and 
construct a new home or build a substantial addition to an existing 
home to accommodate his or her special needs.
    In addition, a second grant program provides adaptations of up to 
$10,000 for veterans who are blind in both eyes or have suffered the 
loss, or loss of use, of both hands. This grant can pay for 
improvements that would help resolve issues of home mobility.
    The flexibilities added by the Veterans Housing Opportunity and 
Benefits Act of 2006, which was enacted as Public Law 109-233 on June 
15, 2006, went a long way to help the SAH program provide much-needed 
funds for veterans who otherwise would likely not be able to live 
independently. I thank you, Chairwoman Herseth Sandlin and Ranking 
Member Boozman for championing the expansion of the Specially Adaptive 
Housing program in the House of Representatives.
    Among other things, Public Law 109-233 authorizes a portion of the 
SAH grants to be used to make changes to the home of a family member 
where a veteran temporarily resides. The law also increases the SAH 
program's flexibility by authorizing the VA to make up to three grants, 
the total of which may not exceed the overall grant ceiling.
    From our conversations with VA staff, we understand that these 
changes have successfully reopened the SAH program for use by veterans 
who used the program during a time when only one grant disbursement 
could be made and the amount of that grant was limited by previous 
versions of the authorizing statutes. I am sure this benefit is much 
appreciated by older veterans who need to make additional changes to 
their homes.
NAHB Remodeler Members Can Help Meet the Need
    The leadership and staff of NAHB Remodelers, a council within NAHB 
representing more than 14,000 members, has been spreading the word 
about the ways the Specially Adaptive Housing program can be used to 
help meet the needs of severely disabled veterans to improve their 
living conditions and to help them live independently. In fact, many 
NAHB Remodeler members have already applied their skills to put the SAH 
grants to good use.
    One of NAHB Remodelers' designation programs, the Certified Aging 
In Place Specialist (CAPS), was created to equip remodelers with the 
specialized knowledge needed to meet the requirements of aging 
homeowners who want to remain in their homes as long as possible and 
those with accessibility needs. The CAPS designation demonstrates these 
remodelers' commitment to excellence and sets them apart from others in 
the vast home renovation industry. The skills gained through CAPS 
training are much the same as those which can help remodelers meet the 
accessibility needs of SAH grant recipients.
    NAHB is working with VA's leadership to encourage each of the VA's 
Specially Adapted Housing counselors throughout the Nation to take the 
CAPS certification training. If they avail themselves of this training, 
I believe that each counselor will have a greater appreciation of ways 
to use SAH grants to most effectively meet veterans' needs.
Some Additional Changes Are Needed
    The Veterans Housing Opportunity and Benefits Act of 2006 did much 
to improve the Specially Adaptive Housing program, however, some 
additional changes should be made to improve the program's 
effectiveness.
Increase the Grant Limits
    The grant ceilings of $50,000 and $10,000 for section 2101(a) and 
section 2101(b), respectively, provide needed assistance for funding 
the improvements that must be made to veterans' homes, but often are 
not sufficient to cover the full cost of remodeling. These ceilings 
would typically cover the cost of remodeling kitchens and/or bathrooms 
to make these spaces accessible, however, they fall short of funding 
the changes that must be made to other areas of veterans' homes to meet 
the VA's requirements, such as two points of entry and egress, an 
accessible electrical panel, and so forth. While the VA's accessibility 
requirements are quite reasonable, the grant ceiling is too low to meet 
the costs of other extensive changes that must be made to enable 
veterans to live independently in their homes. A further testament to 
the need for higher grant limits is the fact that 98 percent of those 
eligible use the full grant authority. I would also suggest that the 
grant ceilings be doubled from the present levels and that these higher 
limits be linked to a common measure of inflation, such as the Consumer 
Price Index, as a way of keeping this program's limits relevant as 
costs increase over time.
Authorize Full Use of Grants for Veterans Who Live with Relatives
    Under the Veterans Housing Opportunity and Benefits Act of 2006, 
only one grant can be used for Temporary Residence Adaptation (TRA), 
which pays for changes to the residence of a family member with whom a 
veteran is temporarily residing. The TRA portion of these grants are 
limited to $14,000 and $2,000 for section 2101(a) and section 2101(b) 
disabilities, respectively, and this provision is scheduled to sunset 
after June 15, 2011. After the changes have been made to a relative's 
home, many veterans may find that they will not be able to live 
independently, which may mean that further changes would need to be 
made to the relative's home. To accommodate these veterans, the full 
use of grants should be authorized for veterans who need to live with 
relatives for an extended period. Furthermore, Congress should remove 
the sunset provision without debate.
Compile a Roster of Approved Contractors
    It is in the best interest of the veteran and the VA that the 
highest quality, most appropriate and most cost effective work be 
performed on every job. The most professional, skilled remodelers are 
always in demand and often have the option of taking on additional 
work. Accordingly, I recommend that the VA consider the establishment 
of local or regional panels of approved remodeler/contractors based on 
these contractors' qualifications, track records of satisfactorily 
completing jobs similar to those to be undertaken, trade references, 
and industry credentials.
Review VA's Paperwork Requirements
    There is no question that it is in the best interests of the 
veteran, the VA, and the American taxpayers that the grants are spent 
wisely and that the work that is performed meets the veterans' needs. 
In some ways, however, the VA's current processes are very paperwork 
intensive and may be out-of-step with industry business practices. I 
would not want some of the VA's requirements to discourage remodelers 
from working with veterans who are eligible for SAH grants. I look 
forward to facilitating meetings of the VA leadership with NAHB's 
Remodelers to work through the details of possible ways to streamline 
processes in the Specially Adaptive Housing program.
Conclusion
    In closing, Madame Chairwoman, I want to reiterate NAHB's support 
for America's veterans and for VA's Specially Adaptive Housing program. 
I look forward to working with you, Ranking Member Boozman, the 
distinguished Members of the Subcommittee on Economic Opportunity, and 
leadership of the Department of Veterans Affairs to make an already 
vital program work even better. I would welcome any questions you may 
have.

                                 <F-dash>
                 Prepared Statement of John Gonsalves,
              President and Founder, Homes for Our Troops

    Chairwoman Sandlin and members of the Subcommittee on Economic 
Opportunity, I would like to thank you for the opportunity to speak 
with you today about the Specially Adapted Housing (SAH) grant provided 
by the Veterans Administration.
    As the President and Founder of the nonprofit organization ``Homes 
for Our Troops,'' my organization and I provide specially adapted homes 
to our most severely injured veterans returning from the War on Terror. 
To date, we have provided specially adapted homes for 18 servicemen and 
their families, and we are in the process of providing specially 
adapted homes to 20 more, with our waiting list growing daily.
    The services we provide are done at no cost to the veterans we 
serve, and the majority of the services provided thus far have been in 
the form of a newly constructed, specially adapted homes.
Who We Serve
    The veterans we serve are among the most severely injured in the 
War on Terror. Their injuries include amputations, paralysis, spinal 
cord injuries, traumatic brain injuries, blindness, and those with 
severe burns. Many have more than one of those injuries. More often 
than not, they are young, with young families who previously 
lived in military or rented housing that was not adapted to meet their c
urrent needs.
    Once separated from the service, the service person and his/her 
family are often left with substandard housing options that put a 
tremendous burden on the veteran's recovery and his or her family. This 
burden can be too much for most families, and at this fragile time in 
their lives the veteran's recovery can deteriorate, and his or her 
family can break apart.
    The events that lead to these situations are unacceptable, and the 
burden that is felt by these veterans and their families should be 
shared by the American people and our government.
    The SAH grant provides a valuable service to our servicemen and 
women. However, the value of that service is diminishing in the face of 
economic changes. Also, with medical advances on the battlefield and 
technological advances in the housing industry, the ``Specially 
Adapted'' portion of the grant title needs to be revisited to ensure 
that the true potential of ``Specially Adapted'' is realized.
The Changes We Would Recommend
    As discussed more fully below, we respectfully recommend the 
following changes to the SAH grant.

    1.  Increase the amount of the grant to reflect higher home prices.
    2.  Remove the 50% requirement.
    3.  Redefine ``special'' adaptations and allow flexibility based on 
specific injuries.
    4.  Allow cost incurred on behalf of the veteran to qualify for the 
SAH grant.

Diminishing Value of the SAH Grant
    Perhaps the best way to describe the greatest impact to the SAH 
grant's ability to help our severely injured veterans is to summarize 
the diminishing value that the grant contributes to the construction of 
a new home since the end of the Vietnam War.
    Up until 30 years ago, the SAH grant was equal to 50% to almost 70% 
of the average new home sale price. A grant for 50% of the home cost, 
combined with the relatively low cost of homes in the 1970's, made a 
substantial difference in the ability of disabled servicemen and women 
to obtain a home suited to their disabilities.
    However, since the late 1970's the SAH grant has simply not kept 
pace with the increasing price of homes. Page 3 provides historical 
information on the SAH grant and new home prices back to 1969, and 
shows that the grant as a percentage of new home prices has decreased 
from a high of 69% in 1974 to just 17% in 2006.
    The average new home price has increased about 6% per year over the 
last 30 years while the grant has increased only 2% per year. If the 
$50,000 SAH grant had grown at the same rate as home prices, the grant 
would now be $145,000, which would equal about 50% of the cost of a new 
home in 2006.
Inadequacy of the $50,000 Limit of the SAH Grant
    The cost of building a new home averaged $302,000 in 2006. The 
homes needed by these veterans are more expensive than the average 
because they require adaptations and specialized construction that 
increases the cost as compared to a ``basic'' home.
    Page 4 provides information on costs incurred by Homes for Our 
Troops to build new homes and to buy and adapt existing homes, along 
with the cost for an adaptation to a home already owned by the veteran.
    We have averaged about $336,000 for the cost of building new homes 
that are fully specially adapted based on the veteran's injuries and 
disabilities. The cost for homes we have purchased and adapted have 
averaged somewhat less due to the fact that two of the three families 
happened to live in relatively low-cost areas of the country.
    Limiting the grant to $50,000 means that, on average, these young 
men and women will need to borrow $280,000 to purchase a home that 
accommodates the handicaps caused by their severe injuries. Few, if 
any, can qualify for a loan that size, and so they end up living with 
family members, in apartments that are inappropriate for their 
condition, in transitional housing and, in the worst cases, on the 
street.
    We find that to be unacceptable given the physical, emotional and 
financial suffering that the veteran and his or her family has already 
experienced.
                          Homes for Our Troops
                         Historical Comparison
      Specially Adapted Housing vs. Average New Home Sales Prices

    This table takes each year there was a change in the SAH grant and 
compares it to the average new home sales price for that year.


--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                    Average New Home    Grant as % of       Grant %        Home Price %
                              Year                                   SAH Grant            Price              Home           Increase         Increase
--------------------------------------------------------------------------------------------------------------------------------------------------------
1969                                                                      12,000              25,000              48%               --               --
--------------------------------------------------------------------------------------------------------------------------------------------------------
1972                                                                      18,000              28,000              64%              50%              12%
--------------------------------------------------------------------------------------------------------------------------------------------------------
1974                                                                      25,000              36,000              69%              39%              29%
--------------------------------------------------------------------------------------------------------------------------------------------------------
1978                                                                      30,000              63,000              48%              20%              75%
--------------------------------------------------------------------------------------------------------------------------------------------------------
1981                                                                      33,000              82,000              40%              10%              30%
--------------------------------------------------------------------------------------------------------------------------------------------------------
1984                                                                      35,000              98,000              36%               6%              20%
--------------------------------------------------------------------------------------------------------------------------------------------------------
1988                                                                      38,000             140,000              27%               9%              43%
--------------------------------------------------------------------------------------------------------------------------------------------------------
1998                                                                      43,000             180,000              24%              13%              29%
--------------------------------------------------------------------------------------------------------------------------------------------------------
2001                                                                      48,000             207,000              23%              12%              15%
--------------------------------------------------------------------------------------------------------------------------------------------------------
2003                                                                      50,000             240,000              21%               4%              16%
--------------------------------------------------------------------------------------------------------------------------------------------------------
2006                                                                      50,000             302,000              17%               0%              26%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Note: Home Price data was derived from U.S. Census Bureau historical reports.


% Increase from 1969 to 2006:
    SAH Grant
                         317%
    Home Price
                        1108%

    The SAH grant would need to be increased from $50,000 to $145,000 
to maintain the same ratio of grant amount vs. home price that existed 
in 1969. It would need to increase to nearly $200,000 to meet the 1974 
high of 69%.
                          Homes for Our Troops
              Building Costs for Specially Adaptive Homes
                     Homes Built from the Ground Up
                              (See Note 1)

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                          Eastern    Western
                                                                     Connecticut   Louisiana   Massachusetts   Montana     Penn-      Penn-     Average
                                                                                                                          sylvania   sylvania
--------------------------------------------------------------------------------------------------------------------------------------------------------
Labor &                                                                 71,000      272,000        83,000       94,000     13,000    161,000    116,000
  Materials--
  Purchased
--------------------------------------------------------------------------------------------------------------------------------------------------------
Labor &                                                                165,000       62,000       168,000      154,000    227,000     48,000    137,000
  Materials--
  Donated
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total Labor and Materials                                              236,000      334,000       251,000      248,000    240,000    209,000    253,000
--------------------------------------------------------------------------------------------------------------------------------------------------------
Land (purchased by HFOT or vet)                                        100,000       50,000       200,000       36,000     62,000     50,000     83,000
--------------------------------------------------------------------------------------------------------------------------------------------------------
    Total Cost                                                         336,000      384,000       451,000      284,000    302,000    259,000    336,000
--------------------------------------------------------------------------------------------------------------------------------------------------------
Note 1: The cost for labor and materials at each home varies based on required home size, specific adaptations.



----------------------------------------------------------------------------------------------------------------
                                                        Homes Purchased and Adapted              Home Owned by
                                             -------------------------------------------------    Veteran and
                                                                                                Adapted by HFOT
                                              Georgia (see     North     Virginia    Average  ------------------
                                                 Note 2)     Carolina                              California
----------------------------------------------------------------------------------------------------------------
Labor & Materials-- Purchased                       4,000      25,000      17,000     15,000             39,000
----------------------------------------------------------------------------------------------------------------
Labor & Materials-- Donated                        31,000      75,000      64,000     57,000             15,000
----------------------------------------------------------------------------------------------------------------
Total Labor and Materials                          35,000     100,000      81,000     72,000             54,000
----------------------------------------------------------------------------------------------------------------
Purchased Existing Home                           151,000      76,000     370,000    199,000
----------------------------------------------------------------------------------------------------------------
    Total Cost                                    186,000     176,000     451,000    271,000
----------------------------------------------------------------------------------------------------------------
Note 2: This home was already partially handicap-accessible for a wheelchair-bound person, so the cost for
  modifications was less than the other homes.


Reconsidering the 50% Cap
    A disheartening aspect of the SAH grant that should be changed is 
the requirement that the award of the grant is limited to 50% of the 
cost incurred by the veteran. Simply put, in order for a qualifying 
veteran to receive the full $50,000 SAH grant, the veteran must show a 
cost to of $100,000 in home purchase price or home adaptation costs.
    It should be noted that $100,000 can do little these days to obtain 
and/or modify a home to meet the requirements of the SAH grant. 
However, in the extremely unusual case that a qualified veteran is able 
to obtain or adapt a home to meet the requirements of the SAH grant for 
under $100,000, it is concerning to think that we as a Nation would 
only reimburse 50% of those costs to that veteran. It would seem more 
appropriate that these veterans should not have to incur a cost since 
the price they have already paid as a result of their life-altering 
injuries cannot be measured in dollars.
Redefining ``Cost to the Veteran''
    The SAH grant ``cost to the veteran'' requirement has caused the 
hindrance of communities, NGOs and family members to provide housing to 
``their veteran(s)'' at no cost to those veterans.
    As the American public realizes the importance of supporting our 
servicemen and women, efforts by organizations like Homes for Our 
Troops, local communities and family members of severely injured 
veterans have been hindered in applying the SAH grant to the cost of 
specially adapted home building projects because, technically speaking, 
the veteran did not incur any cost.
    The requirement that, in order to qualify for the SAH grant there 
must be a ``cost to the veteran,'' should be removed or at least 
modified to allow for costs to be incurred by other entities on behalf 
of the veteran. A simple change like this would free up resources and 
encourage NGOs, communities and family members to help those veterans 
needing Specially Adapted Housing.
    If Homes for Our Troops were able to get the full value of the SAH 
grant applied to the 20 homes we presently have underway, that would 
reduce our cost for those homes by $1,000,000 and allow us to take many 
more families off of our waiting list.
Redefining ``Specially Adapted''
    Many of us have heard and read about the unfortunate battlefield 
effectiveness of Improvised Explosive Devices and snipers, and the 
devastating injuries they inflict on our servicemen and women. We have 
also read how these sources of injury, coupled with improved medical 
care on the battlefield, have resulted in greater survivability of our 
most severely injured combat veterans. Servicemen and women with 
injuries that would have killed them in previous wars are now living to 
see another day, and are in need of truly ``special'' home adaptations.
    The SAH grant, in its present form, is primarily focused on the 
home adaptations needed for wheelchair accessibility. Wheelchair 
accessibility is very important for our veterans. However, the 
uniqueness and severity of certain injuries requires that some 
adaptations, currently dictated as mandatory, become more flexible and 
occasionally omitted from the requirements in lieu of other more modern 
and appropriate adaptations specifically chosen for the actual needs of 
the individual veteran.
    For example, the SAH grant currently dictates specifications that 
mandate grab bars, countertop heights and depths, electrical outlet 
placements, door handle requirements and several other adaptations that 
benefit wheelchair bound individuals with upper body control, but 
provide no benefit to a quadriplegic or to a blinded, upper bilateral 
amputee.
    A more preferable alternative to this would be to allow flexibility 
in what adaptations are required so that, in lieu of spending money on 
unnecessary grab bars for a quadriplegic, that money could be spent on 
providing a larger living space for ease of movement, or perhaps motion 
or voice activated adaptations to improve the veteran's quality of 
life.
    In its present form, I believe that the ``Specially Adapted'' 
Housing grant does not provide enough flexibility in the field to allow 
for these homes to be truly ``Specially Adapted.''
    The general guidelines for the required and recommended adaptations 
needed to award the SAH grant are spelled out in VA Pamphlet 26-13, 
which was last updated in April 1978. Along with not having been 
updated in 29 years (which is before many of the men and women being 
injured in this current war were even born), the pamphlet does appear 
to offer flexibility in the choices of adaptations by using the word 
``should'' in many of its recommendations. However, SAH field agents, 
whether by direction or personal interpretation, are often mandating 
adaptations that are listed as ``should,'' thereby diverting financial 
resources from needed adaptations to unneeded adaptations.
Examples of Truly ``Special'' Adaptations in Two of Our Home Projects
    U.S. Army Specialist Russell ``Kyle'' Burleson was only 22 when he 
was shot in the left cheek by a sniper during a firefight in 2004 in 
Iraq while serving as a top gunner on a HMMWV. Kyle was left a C-2 
quadriplegic on a ventilator and confined to an 800 pound wheelchair 
and the need of a hydraulic lift to lift Kyle out of his chair and his 
bed. Upon release from the Army and the hospital, Kyle, his wife 
Kristy, and their two young children had no place to move to except 
Kyle's mother's 120-year-old, 900-square-foot house.
    The house was small and because of its size, Kyle, Kristy and their 
two children lived in one room that used to be his mother's living 
room. Because of the size of Kyle's wheelchair, Kyle was confined to 
that one room and could not move to other rooms in the house. And 
because of the size of the hospital bed, the size of the wheelchair, 
and the size of the other equipment like the hydraulic lift and the 
ventilator, Kyle could not move his chair at all, except to wheel out 
the double-doors they installed, that lead to the front porch of the 
house and a wheelchair ramp.
    Living conditions were very tough for this young family that had 
already sacrificed so much, and because of these conditions, conducting 
some of Kyle's recommended therapies and exercises became too much of a 
burden, and Kyle's health deteriorated.
    To say that this situation is unacceptable is a significant 
understatement.
    Kyle and Kristy could not afford to build their own home, nor was 
the SAH grant a sufficient monetary contribution to their financial 
resources to allow them to build a home specially adapted to meet his 
many needs. The family lived in those conditions until we recently 
finished a home for them in November 2006. Although we conformed to 
unneeded adaptations like grab bars, fixture placements and countertop 
heights, we also focused on other special adaptations necessary for 
Kyle's situation.
    Because Kyle is confined to a large wheelchair and on a respirator, 
and because he lives in a rural area of Louisiana where tornadoes, 
hurricanes and severe weather often occur and result in power loss, we 
also adapted his house with those concerns in mind.
    To meet those concerns:

    1.  A back-up generator was installed, so that Kyle's ventilator 
would continue to function during extended power outages.
    2.  The walls of the house and the walls of the master bedroom were 
constructed of insulated concrete forms to provide a safe haven and a 
bunker for his family during a tornado or hurricane.
    3.  Simonton Windows, one of our corporate sponsors, donated their 
Stormbreaker Plus, shatter-proof storm resistant windows to protect the 
family from flying debris.
    4.  Knowing that a majority of Kyle's time would be spent in his 
house and basically become ``his world,'' we constructed a large open 
floor plan for ease of movement and greater freedom.

    Had we not constructed a home for Kyle and his family, they would 
still be living in the same conditions, a thought that we find 
intolerable.
    U.S. Army Specialist James Fair was severely injured in 2003 in 
Iraq while serving with the 1st Infantry Division. Although James' 
memory is not clear of the event, it is believed that James was 
severely injured while diffusing an IED that he came across while 
setting up a barbed wire perimeter. The explosion took James' hands 
(just below his elbows), severely injured his right leg, caused a 
traumatic brain injury and left James completely blind in both eyes.
    To put James' injuries into perspective, James had to be repeatedly 
told that he had lost his hands because phantom pains made him believe 
that he still had his hands, and his blindness prevented him from 
seeing that his hands were, in fact, gone.
    The combination of James' injuries has left him unable to live on 
his own, and in need of 24-hour care from his mother and stepfather, 
who rent a small house with no special adaptations. Because of James' 
living conditions, the lack of home adaptations and the family's 
inability to afford to purchase a specially adapted home, James has 
spent the last few years sitting on his couch, hoping to someday 
overcome his challenges.
    His injuries provide very unique challenges from a home adaptation 
standpoint because the combination of blindness without hands has 
proven to be a monumental challenge to overcome.
    Because James has no hands, he cannot use tactile feeling to orient 
himself like most blind people do. Prosthetic arms do not work for 
James because he cannot see where the tip of the prosthetics are, or 
feel what they are coming in contact with.
    Although the SAH grant will assist James with wheelchair 
accessibility, there are many other equally important adaptations that 
James will need. Some of the adaptations we are planning on 
implementing into James' home should, in our opinion, take precedence 
over some of the SAH grant requirements. Please see Page 9 for a list 
of these adaptations. Of course it is understood that VA Prosthetics 
and Occupational Therapy may already cover some of these adaptations.

            Planned Special Adaptations to James Fair's Home
    1. Home Automation
      a.
         Door openers by (proximity reader)
      b.
         Toilet Seat (motion and large button activated to lift seat, 
cleanse, dry, flush and close seat)
      c.
         Alarm system (voice activated)--EMS/Fire/Police/Burglary
      d.
         System operations (HVAC--voice activated)
      e.
         Sinks--Motion Activated Faucets
      f.
         Soap Dispensers--Motion Activated
      g.
         Electric Hand Drier--Motion Activated
      h.
         Several Hand Driers, vertically mounted to dry off from a bath
      i.
         Body spray nozzles in shower
    2. Home Adaptations
      a.
         Different flooring per room, for room orientation with feet
      b.
         Radiant floor heating
      c.
         Low thresholds to minimize trip hazards
      d.
         Controls for HVAC, Electrical, Toto toilet seat, etc. . . . 
located on the floors or baseboards
      e.
         Kitchen
        i.
          Cabinets with sliding doors and pull-down shelving unit
        ii.
          Stove--voice activated
        iii.
          Faucet--motion activated
        iv.
          Drier--motion activated
        v.
          Dishwasher--voice activated
      f.
         Rounded wall corners
      g.
         Sensors in walls or danger areas that beep to let James know 
he is getting too close
    3. Landscaping/Yard
      a.
         Private outdoor area with railings--devoid of trip hazards--
cushion surfaced (like playgrounds)
      b.
         Sound and aroma, calming environment design--running water, 
flora, sound system
      c.
         Solarium or 3 season room
      d.
         Sitting area

Summary
    I would like to express my gratitude for the efforts of this 
Committee, the efforts of the Veterans Administration and all who are 
involved in administering and implementing the SAH grant. The SAH grant 
is a much needed, extremely valuable service that is provided to our 
severely injured veterans.
    Yet despite its benefits, I feel that the intention and capacity of 
the SAH grant is not being fully realized, and should be modernized and 
expanded to better assist our severely injured in a manner more fitting 
and appropriate to their service and sacrifice to our country.
    Homes for Our Troops will gladly assist the Veterans Administration 
in developing new criteria and technologies for inclusion into the 
requirements of the SAH grant, and will further suggest the possibility 
of a VA Representative being assigned to Homes for Our Troops as means 
to accomplishing this goal.
    Chairwoman Sandlin and members of the Subcommittee on Economic 
Opportunity, I would again like to thank you for the opportunity to 
speak with you today. I would be happy to answer any questions that you 
might have and provide any additional information that you might need.

                                 <F-dash>
  Prepared Statement of Keith Pedigo, Director, Loan Guaranty Service
 Veterans Benefits Administration, U.S. Department of Veterans Affairs

    Madam Chairwoman and members of the Subcommittee, I appreciate the 
opportunity to appear before you today to discuss VA's Specially 
Adaptive Housing (SAH) programs. In my testimony I would like to 
highlight VA's commitment to meeting the housing needs of our Nation's 
most seriously disabled veterans.
The Specially Adapted Housing Grant Program
    The Department of Veterans Affairs (VA) home loan program serves a 
clientele that is diverse in many ways. The only common denominator of 
this clientele is service in the Armed Forces of the Nation. Specially 
Adapted Housing (SAH) grants for severely disabled veterans are among 
the most important of the benefits that the Loan Guaranty program 
provides. Veterans who have specific service-connected disabilities may 
be entitled to a grant from VA for the purpose of constructing an 
adapted home or modifying an existing home to meet the veteran's needs. 
The goal of the SAH grant program is to provide a barrier-free living 
environment which affords the veteran a level of independent living 
that he or she may not have otherwise enjoyed. Since the inception of 
this program in 1948, VA has provided approximately 34,000 grants 
totaling $650 million. Since FY 1996, VA has provided this grant 
assistance to almost 6,000 severely disabled veterans.

Types of Grants
    There are three types of grants administered by VA, which are 
available to assist severely disabled veterans in adapting housing to 
meet their special needs.

    <bullet>  The Specially Adapted Housing (SAH) grant is generally 
used to create a wheelchair accessible home. This grant is currently 
limited to $50,000.
    <bullet>  The Special Home Adaptations (SHA) grant is generally 
used to assist veterans with mobility throughout their homes. This 
grant is currently limited to $10,000.
    <bullet>  A Temporary Residence Grant (TRA) is now available to 
eligible veterans temporarily residing in a home owned by a family 
member. Under this program veterans eligible for an SAH grant would be 
permitted to use up to $14,000 and those veterans eligible for an SHA 
grant would be permitted to use up to $2,000 of the maximum grant 
amounts.

Subsequent Use
    As a result of P.L. 109-233, eligible veterans or servicemembers 
may receive up to three SAH grants. Prior to enactment of this law, 
veterans could receive only one SAH grant from VA. Over the past 10 
years, VA received approximately 1,000 grant applications per year. As 
a result of the enactment of the law permitting multiple-use, in 
addition to our normal volume, VA field offices have received 4,200 
requests for subsequent use grants as of May 18, 2007. This is clearly 
a substantial increase in volume. VA is prepared to devote the 
necessary staffing resources to ensure that these veterans receive 
timely grant processing.

Eligibility for SAH Grants
    The SAH grant is available to veterans who have a service-connected 
disability due to military service, entitling them to compensation for 
permanent and total disability due to:

    <bullet>  The loss, or loss of use of both lower extremities, such 
as to preclude locomotion without the aid of braces, crutches, canes, 
or a wheelchair, or
    <bullet>  Blindness in both eyes, having only light perception, 
plus loss or loss of use of one lower extremity, or
    <bullet>  The loss, or loss of use of one lower extremity together 
with (1) residuals of organic disease or injury, or (2) the loss or 
loss of use of one upper extremity, which so affects the functions of 
balance or propulsion as to preclude locomotion without the aid of 
braces, crutches, canes, or a wheelchair, or
    <bullet>  The loss, or loss of use of both upper extremities such 
as to preclude use of the arms at or above the elbow.

    The SHA grant is available to veterans who have a service-connected 
disability due to military service, entitling them to compensation for 
permanent and total disability due to:

    <bullet>  Blindness in both eyes with 5/200 visual acuity or less, 
or
    <bullet>  The anatomical loss or loss of use of both hands, or 
extremities below the elbow.

Sufficiency of Grant Levels
    The last grant increase provided by Congress was in 2003, at which 
time the Specially Adapted Housing grant was increased from $48,000 to 
$50,000. Since 2003, approximately 98 percent of grant recipients used 
the entire grant amount available. Of those who did not use the entire 
amount, the average use was over $49,000.

Customer Satisfaction Survey Results
    In 2003 VA conducted a survey of SAH grant recipients. The purpose 
of this survey was to help us determine whether and how well we were 
meeting the needs of our veterans. Ninety-two (92) percent of grant 
recipients indicated that they were satisfied or very satisfied with 
the overall SAH grant program. We are currently conducting another 
customer satisfaction survey to determine how we have improved in our 
SAH grant delivery methods and timeliness. We hope to have the results 
from the survey by the end of this fiscal year. We intend to use the 
feedback to further improve the grant process.

Related Benefits
    Additionally, when appropriate, VA coordinates SAH benefits with 
the Vocational Rehabilitation and Employment programs for Independent 
Living (IL) Services. These programs' employees closely coordinate 
their activities when veterans are eligible for both SAH and IL 
benefits. This ensures that veterans will receive the optimal services 
available from each program, and eliminates the duplication of 
benefits.
    The SAH and SHA grants can also be used in conjunction with other 
VA benefit programs, including:

    <bullet>  The Veterans Mortgage Life Insurance program through the 
VA Insurance Center,
    <bullet>  The VA Guaranteed Home Loan, and Native American Direct 
Loan programs through VA Loan Guaranty Service, and
    <bullet>  The Home Improvement and Structural Alterations program 
through the Prosthetics & Sensory Aids Service (Veterans Health 
Administration).

    Madam Chairwoman, this concludes my testimony. I greatly appreciate 
the opportunity to be here today and I look forward to answering your 
questions.

                                 <F-dash>
          Statement of Shannon L. Middleton, Deputy Director,
    Veterans Affairs and Rehabilitation Commission, American Legion
    Mr. Chairman and Members of the Subcommittee:

    Thank you for this opportunity to submit The American Legion's 
views on the Department of Veterans Affairs Specially Adaptive Housing 
program.
    The American Legion believes the need for Specially Adaptive 
Housing is paramount as increasing numbers of severely disabled 
veterans are returning from Iraq and Afghanistan.
    The signature injuries of Operation Iraqi Freedom (OIF) and 
Operation Enduring Freedom (OEF) are blast trauma injuries resulting 
from improvised explosive devices (IED) to include--but are not limited 
to--amputations, loss of sight in one or both eyes and nerve damage. 
Decades ago, many of these veterans would never have survived their 
injuries. But, due to advances in protective gear, many combat veterans 
return to their lives with permanent, life-altering disabilities. The 
Specially Adaptive Housing and the Special Home Adaptation programs 
assist these veterans with adapting their housing to accommodate their 
special needs and helps to promote independent living.

The Specially Adapted Housing Grant
    This grant is available for disabled veterans who are entitled to a 
wheelchair-accessible home especially adapted for their needs. These 
veterans are service-connected for total and permanent disabilities 
that include: loss or loss of use of both lower extremities; blindness 
in both eyes and loss or loss of use of one lower extremity; loss or 
loss of use of one extremity and residuals of organic disease or 
injury; and loss or loss of use of both upper extremities at or above 
the elbow. Many of the injured servicemembers may temporarily reside 
for extended periods of time with family members providing assistance 
during rehabilitation after combat-related injuries that result in 
permanent and total service-connected disabilities.
    Currently, the program authorized a maximum amount of $50,000 for 
this grant--which can be used up to three times. A temporary grant of 
$14,000 for veterans residing temporarily in a home owned by a family 
member is also available. The cost of construction material and labor 
will increase and the grants should be adjusted regularly to reflect 
the increase. The American Legion strongly recommends that the current 
maximum for this program be increased to reflect the increase in the 
residential cost of construction index.
    The American Legion strongly recommends that the current $50,000 
grant for Specially Adapted Housing be increased to $55,000.
Special Home Adaptations Grant
    This grant is available to veterans who are entitled to adaptation 
due to blindness in both eyes with 5/200 visual acuity or less, or 
includes the anatomical loss of both hands for the actual cost to adapt 
a house, or the appraised market value of, adapting features already in 
the house when it was purchased. The current maximum grant amount is 
$10,000.
    The maximum amount for the temporary grant for veterans temporarily 
residing with family is $2,000. Depending on the length of the 
veteran's stay with the family member, the family member's home may 
require extensive adaptations in order to gain independence over the 
course of recovery. The American Legion believes that the maximum 
amounts for this program should also be increased to accommodate the 
increase in the cost of home improvement.
    Some of these veterans and their families have already experienced 
financial hardships due to loss of the veteran's income or loss of 
employment while providing care to the injured veteran. The amount of 
the grants, which are designed to meet the needs of veterans who are 
facing challenges due to their service-connected disabilities, should 
do as much as possible to defray the cost of these necessary 
adaptations.
    The American Legion strongly recommends that the Special Home 
Adaptations grant be increased from $10,000 to $12,300.
    Again, thank you, Mr. Chairman, for giving The American Legion this 
opportunity to present its views on the Specially Adaptive Housing 
program. We look forward to working with the Subcommittee to address 
this important issue.

                                 <F-dash>
             Statement of Don D. Cooper, Tacoma, Washington

    I'm writing to request that the House Committee on Veterans' 
Affairs undertake a serious reconsideration of an adequate and proper 
funding amount for the Special Adaptive Housing grant. For some time 
now it has remained at an inadequate $50,000 maximum grant per 
qualifying disabled veteran.
    I am a Vietnam era (1968-69), service-connected triple amputee and 
wheelchair user. I previously used the Special Adaptive Housing grant 
in 1980-81 when I purchased a condominium unit in Seattle that was 
undergoing a conversion from rental apartments to individual unit 
private ownership. The SAH grant at that time was $30,000 and the cost 
of the two bedroom unit was to the best of my recollection $80 to $85 
thousand, which was at the time a median priced condo unit for Seattle. 
The SAH grant at that time was sufficient to allow me to completely 
remodel the kitchen, utility room, both bathrooms, all interior 
doorways, flooring, etc., to make the condominium unit into a fully 
wheelchair-accessible home; thereby permitting me to live an 
independent, full life as I pursued a normal and productive career life 
that was as good as anyone could expect with my severe physical 
limitations.
    In the intervening time period of approximately 26-27 years since I 
last used the SAH grant to buy and remodel a home, I find that the 
median price of a home in my area has jumped more than fivefold over 
that same period of time. If my memory serves me correct, I believe 
that I recently read that the overall U.S. median price of a home has 
more than tripled since 1980. Yet the SAH grant has increased by only 
$20,000, or 67%, to $50,000 within that same time period--not even 
doubling over that near 30 year period and thereby not keeping up with 
the cost of inflation for housing. In 2005, either the U.S. House or 
the Senate considered adding $5,000 to the $50,000 maximum grant 
amount, but even that small increase didn't make it to any final bill 
passage.
    I don't know how our newly disabled Iraqi/Afghani vets, especially 
with wheelchair mobility requirements, can be expected to adapt his or 
her existing home (let alone purchase a first home!) on only $50,000 at 
today's prices. For a fully wheelchair-adaptive home we are talking 
significant adaptations to kitchens, bathrooms, interior doors, 
electrical placements, flooring, perhaps ramps or lifts, etc.
    Now, 26 years after I last used the SAH grant, I have retired from 
a successful career life and as part of my retirement experience I 
decided last year to sell my last condominium home and purchase a 
single-family home with yardage that would provide me with an outdoor 
living experience that a condominium building could not. The selling 
price of my condominium and the purchase price of the single-family 
style home were an even trade, pricewise, but I had to additionally set 
aside what I assumed would be adequate funds to cover expected 
remodeling costs for wheelchair accessibility. But since buying the 
home I have been amazed at the current expense of trying to remodel any 
home to make it at least minimally accessible for wheelchair needs. I 
have hired an architect and have been told to expect remodeling/
construction costs to average between $150 to $200 per sq. ft. I am 
needing a wheelchair lift to have full access to all the home and have 
received bids of between $23 to $25 thousand for the cost of simply 
purchasing the lift--not including the costs for installation and 
construction. Because of the high lift cost, I have decided to forego 
any kitchen or utility room remodeling, and will only do one complete 
bathroom remodel out of the three total bathrooms in the home. I was 
fortunate to receive a relative's donated labor when I remodeled three 
interior doors to make them wider, pocket-type doors for ease of 
wheelchair access. I have decided to install ramp access to only one of 
three exterior doors to also cut down expenses.
    I was quite surprised and relieved when I received notice from the 
VA last December that I qualified for a reuse of the SAH grant under 
the new provisions of P.L. 109-233 passed last June 15, 2006. These new 
provisions allow reuse of the SAH grant for up to three times ``as long 
as the aggregate amount of assistance does not exceed the maximum 
amounts allowable for grants authorized under title 38. . . .'' In my 
particular case, this has meant $20,000, the difference between $30K I 
used in 1980 and the maximum SAH grant that has existed for several 
years at $50K. This unexpected windfall will now allow me to complete 
my remodeling project because it will pay for the majority of the cost 
of a wheelchair lift, even though I am still forced to scale back my 
initial remodel plans because of unanticipated high costs for the 
remaining work. Yet, overall, I am still pleased and satisfied with my 
decisions as they stand even if they will fail to meet my maximum 
benefit. Such is life. Therefore, I don't wish to give the impression 
of exhibiting a sour grape attitude to my predicament, or to be a 
whiner at the public trough.
    Yet my experience and needs as a disabled U.S. veteran since 1969 
and comparing it to the future needs and possible experiences of the 
newly disabled Iraqi/Afghani vets causes me to be concerned that their 
well-being will not be as fully met as it has been for me. Looking at 
my care overall, I have been well served by the U.S. Veteran's 
Administration and the laws enacted to provide for my care. I can 
especially say that this was so in the early years of my disability, 
when my needs were greatest to get me started on the path of a 
reasonably independent and full life. My basic physical needs were 
provided for; my independent transportation needs were taken care of by 
the automobile grant; my college education was fully funded, enabling 
me to pursue a normal career life; and my independent housing needs 
were met as I've outlined above. All four of the above life needs were 
important in allowing me to have a fulfilling life in spite of my 
severe disability. At present, in giving thought to all this, I'd be 
hard pressed to put them in any sort of needs hierarchy.
    But this is not the point that I wish to emphasize to this 
Subcommittee. The point that I wish to impress upon this Subcommittee 
of the House Committee on Veterans' Affairs is the importance of fully 
funding all four of these life needs that I have found important as a 
longtime disabled veteran. From my perspective and experience, the 
funding of one of these life needs is currently not being fully met, 
and that is the independent housing need.
    If I wasn't able to live independently from the beginning, I faced 
either being taken care of by my parents or siblings, or living in a 
physical care institution. Neither was an acceptable option for me as I 
would have most likely deteriorated emotionally over time, since I 
valued highly my independence in choice and action, and toward which my 
VA funded education and independent transportation abilities had 
already pointed me as a desired direction. Not being married at the 
time of my war trauma, I did not have the opportunity afterward to have 
a third option--that of having my own wife and family to live with 
(this will also be the future for many of these newly disabled war 
vets).
    My experience in meeting this need from 30 years ago and trying to 
meet it again at the present day hopefully clarifies my point. If these 
housing needs are not adequately funded from the beginning, additional 
Federal tax dollars will end up being expended in the future, either 
for long-term psychological or institutional care, or both. We owe 
these newly minted disabled vets better than that.
    Thank you for your time and consideration.

                                 <F-dash>
   Statement of Linda Fraser, Rochester, Indiana, on behalf of Floyd 
                                 Fraser

    My husband Floyd served in the Army from October 1965 to October 
1967 during which he served in Vietnam from May 1966 to May 1967. While 
in Vietnam he was wounded three times, including once in the head and 
once by being stabbed while in hand-to-hand combat. Floyd was assigned 
to the 69th signal corps of the 101st Airborne. He was first assigned 
to be a guard for Gen. Westmoreland, during which his head injury 
occurred when the compound came under attack.
    While in the field, Floyd had heavy exposure to Agent Orange. From 
this Floyd has suffered a wide variety of problems, from rashes to the 
diabetes he continues to suffer from. Floyd also suffers with PTSD 
still today. Thankfully, Floyd has been treated through the VA health 
system for all his medical problems since 1983. When Floyd first 
started with the VA Hospital for the seizures, he was given 10% 
disability for Traumatic Head Injury: they also discovered the PTSD; 
later they would discover the type 2 diabetes. Unfortunately, the 
diagnosis for diabetes came late, and this led him to develop severe 
complications, one being neuropathy of his lower extremities that 
worsened to the point where he totally lost feeling in both legs in 
2003.
    After discharge from the Army, Floyd returned to work at RCA in 
Bloomington from 1967 to 1975 when he went to college to become a 
funeral director and embalmer. Due to PTSD he was unable to continue to 
work in this area as he was having flashbacks to Vietnam and fallen 
comrades. This lead to his treatment for the PTSD while unemployed. 
From 1983 to 1986, Floyd returned to college for computer training. 
Unable to obtain work in that area, he went to work for the Indiana 
Highway Department, eventually working himself up to Assistant 
Supervisor over bridges and highways. In 2003, Floyd began having 
trouble walking and began having difficulty doing his job. He was 
admitted to the VA Hospital in Indianapolis where he was told he was 
having small strokes and had developed the previously mentioned 
neuropathy, resulting in the total loss of feeling from his feet to 
just above his knees. At this time he was placed on 100% disability.
    In April of 2004 we received a letter from the Department of 
Veterans Affairs stating that we were eligible to receive Special 
Adaptive Housing. We called the office and spoke with Winston Hunter, 
setting up an appointment for him to come to our home. I then began 
looking for contractors. Our son Paul did the blueprints for the job to 
save money and worked with all the contractors to keep the cost down. 
Unfortunately, he was unsuccessful with getting a contractor in our 
area to work with the VA because the contractors were unfamiliar with 
the program and wanted at least one-fourth of the cost up front. 
Finally, in the spring of 2005, we went to a builder's home show in 
Kokomo and found a contractor, Bergstrom Home Improvements, willing to 
work with the VA and learn how the program worked. Again our son worked 
with them on the blueprints.
    About two months before the construction started, we gathered all 
the involved parties and met with Winston Hunter from the VA in our 
home. At this point we had to go in front of the zoning board for 
approval, get signatures of neighbors for the okay to build, as well as 
other approvals before building could start. While doing this we also 
had to set up an escrow account with the title company costing us 
$100.00. Soon after, Mr. Hunter, Bergstrom's, and my husband and I all 
met to sign the papers. In June the contractors started working and 
were done by the middle of July, even though they ran into unforeseen 
problems. Our home was built in the 1800s and where the addition was 
taking place, there was a log cabin area causing more work than 
anticipated. The first stage went well in doing the foundation; it was 
the next step in cutting out a window for the new doorway, plus 
widening a doorway from the living room to the kitchen area where 
problems occurred. Once the problems were under control, they began 
building a new handicap accessible bedroom and bath. The new rolling 
shower was great until it was used for the first time and water ran all 
across the room! The contractors did not lower the floor enough to 
allow for drainage, which was fixed once they returned and placed a 
strip to stop the flow of water into the room.
    In the kitchen we had an island with a range top in the middle. The 
contractors only moved this from the center to the wall to give Floyd 
enough room to get into and out of the kitchen. Unfortunately, this 
area is still unfinished due to the cost already running over by 
$5,000.00. When doing the heating and cooling to save money again the 
contractor put in flexible piping instead of metal piping. This is not 
good for homes in the country like ours because wild animals and mice 
eat through flexible piping. After finishing the rooms the contractors 
built two concrete ramps, one off the bedroom to serve as an emergency 
exit and the other off the kitchen. The pad off the bedroom was too 
small for Floyd to use easily to get in and out.
    Once the SAH was done it was great for Floyd to be able to get 
around in our home and become more independent. This is because all 
areas now have a five-foot turnaround for his wheelchair. All outlets 
and light switches are at a level accessible to him. Perhaps most 
importantly, we were able to get a full-sized bathroom that Floyd is 
able to use. Floyd is well pleased with the work the SAH program did. 
For all that great good it has done there were also problems. On a 
personal level, the main problem was the extra cost we had to pay to 
finish the kitchen area due to cost overruns. My impression is that the 
cost of the SAH has not increased as rapidly as the inflation of prices 
to be able to get all done that is needed. The other major problem we 
encountered was the large number of contractors unfamiliar with the 
program and unwilling to work with it. According to the contractors we 
spoke with, one main impediment for them is the way the money was to be 
given to them in different stages.
    Thank you for considering our testimony, and thank you for the 
assistance this program, despite some hiccups, has provided for myself 
and my husband.

                                 <F-dash>
        Statement of William Joseph Studebaker, Granger, Indiana

    My name is William Studebaker and I had the honor of serving in the 
United States Army from February 1954 thru February 1956. I was trained 
to be a Medical Laboratory Technician in Fort Sam Houston, Texas and 
later was transferred to Fort Ord in California. I thoroughly enjoyed 
my time in the Army and working in the lab.
    When I was 21, I woke up totally blind. Being so young I was more 
upset about missing participating in a camp ping-pong tournament than I 
was with my blindness. The Veterans Administration diagnosed me with 
multiple sclerosis. I was fortunate enough to regain my vision and 
finish my stint with the Army. I was also fortunate to be diagnosed 
with multiple sclerosis while in the Army but I didn't realize until 
much later how fortunate I truly was.
    I am now considered to be 100% service-connected disabled because I 
am legally blind and because of the multiple sclerosis. I am in a 
wheelchair always, have been diagnosed with Alzheimer's, and am 
receiving treatment for prostate cancer. I receive all medical 
treatment through the Veteran's Administration Hospital either in 
Indianapolis (my primary) or Fort Wayne (dental). The VA has been 
outstanding in its care of me and in addressing my changing health and 
making certain I receive the adaptive devices I require to remain as 
independent as possible. Prior to my health decline I was a high school 
science and biology teacher in California for 17 years. I later 
returned to college and earned a masters' degree in Blind 
Rehabilitation Teaching.
    In January 2006 I received a letter from a Mr. Alan Munn of the 
National Service Office of Paralyzed Veterans out of Indianapolis. Mr. 
Munn requested that I give him a call. I was surprised to receive his 
letter as I felt that my health needs were being monitored closely at 
the VA Hospital. My wife, Julia, called Mr. Munn. Mr. Munn informed her 
that due to my health decline I could be eligible for an increase in my 
monthly benefits. He asked my wife several questions regarding my 
independence--or lack thereof--and was surprised that my wife took care 
of all my needs including dressing me, bathing me, sometimes feeding 
me. He scheduled a physical for me on February 14, 2006 at the Marian 
VA Hospital.
    I was also working with a Michael Buescher of the Fort Wayne 
Vocational Rehabilitation and Employment Office through the VA. Mr. 
Buescher and Mr. Munn both advised my wife and me to apply for the SAH 
grant. Why? They explained that the grant would allow us to make 
adaptations to our home to make it safer and more wheelchair friendly. 
Our house is only 10 years old but it was not built to accommodate 
wheelchairs or a man who tends to fall out of his wheelchair.
    Mr. Winston Hunter, Special Adapted Housing Agent from the 
Indianapolis Field Team, contacted us and scheduled a home visit on 
November 16, 2005. He did not tell my wife that I needed to be at the 
visit and I spent the day at my office (adult daycare). Mr. Hunter 
toured the house and had my wife fill out paperwork and watch a video 
about the possibilities the grant had to offer regarding home 
adaptations. Calls and paperwork between Mr. Hunter and my wife 
persisted through April of 2006 when Mr. Hunter requested a meeting 
with me. No problem as we are down in Indianapolis at least three times 
a month for my medical appointments. Mr. Hunter needed to see me in 
person as proof that I was indeed in a wheelchair and agreeable to the 
potential house modifications.
    We had a Mr. Louis Seago, a local contractor, come to our home and 
sit down with us and listen to our ideas and why we wanted to make 
certain changes. Mr. Seago offered several suggestions also including 
lowering the thermostat so that I could reach it to set it from the 
wheelchair. Paperwork continually needed to be updated, re-sent, 
explained, waivers were signed, etc. It was a lengthy process but 
everyone involved knew there was a light at the end of the tunnel.
    Work on widening our hallways and doorways and adding a ramp off of 
the master bedroom began in December 2006. A mild winter enabled Mr. 
Seago's crew to install our ramp in January. They also put in French 
glass doors from the master bedroom to the ramp as the old sliding 
doors did not accommodate my wheelchair.
    In January, Mike and Scott, Mr. Seago's crew, were widening the 
doorways from the garage into the hallway with the washer and dryer 
that leads into the house. They moved the dryer vent around to the side 
so that the vent was out of the way and the dryer could be pushed back 
closer to the wall. This may not seem to be a big deal but it was a 
huge deal in my story and why this housing grant was so beneficial to 
my wife and me.
    On the morning of January 12, 2007, I fell while transferring from 
my house wheelchair to my ``outdoor'' wheelchair. The house wheelchair 
is called a quickie and it isn't as wide as a traditional wheelchair. 
Nor is it as sturdy which was why we could only use it in the house. We 
were in a hurry to leave for work. We leave every morning by 6:35 so 
that Julia can drop me off at my office before she heads over to her 
office 45 minutes away. I neglected to put on the brakes on my quickie 
wheelchair. When I stood up to transfer, the quickie rolled backward 
and I panicked and fell hard to the tile floor. Julia was in front of 
me holding the outdoor wheelchair and assists me into that chair by 
grabbing my hips and helping to rotate my hips.
    Julia tried to pick me up herself several times. I weigh about 215 
pounds and Julia weighs about 108 pounds. She is strong but I am dead 
weight. I could not put any weight on my right leg. Julia went and got 
the Hoyer lift the VA had dispensed to me about eight years earlier to 
help get me up off the floor when I fall. Thanks to the dryer being 
moved back against the wall the lift fit easily in the laundry room and 
Julia was able to crank me up and put me into a wheelchair and take me 
to work. I complained that my right leg hurt and Julia checked it 
before she left and said it looked a little red. She mentioned my fall 
and pain to Joanne, the morning person at my office. (The Veteran's 
Administration also covers the cost of my daycare. I was the first 
veteran in this part of the State to qualify for adult daycare coverage 
and that was a long struggle. Happily, now my office has at least a 
dozen veterans who utilize the facility while their loved ones work and 
get a break from being caregivers).
    Julia was called about 10:30 by Norma, who works at my office to 
see if it was all right to give me something for the pain in my leg. 
Julia gave her approval for me to have aspirin. About 11:00 Cindy, the 
office nurse, called Julia saying my right leg was really hurting me 
and that I needed to see a doctor. Again, this is a Friday afternoon 
and Monday was Martin Luther King day. Julia told Cindy that she would 
pick me up at 3:00 for a 3:30 appointment with our family doctor. Julia 
decided not to make the 3.5 hour drive to Indianapolis. Julia also 
called the Marian VA Hospital to make certain that she could take me to 
our family doctor. Julia did not pick me up immediately as Scott and 
Mike were at the house working on the wider doors.
    Long story short--maybe. It turns out that I had badly broken my 
right leg. At Dr. Oppman's office it took several people to get me onto 
the x-ray table. He sent me over to the emergency room. Fortunately, we 
have a van with a lift provided by the Veteran's Administration (the 
life portion). At St. Joseph Hospital it took six workers to get me out 
of my wheelchair onto the examination table.
    A cast was put on my leg that started at my toes and it goes clear 
up to the top of my right leg. No surgery because the doctors' decided 
not to put me through it as I am always in a wheelchair. The doctors 
would not let me leave the hospital until my wife went home and brought 
back a larger wheelchair with a high back and longer leg rest. My cast 
is not flexible at all! The larger wheelchair would not have fit into 
the house with the old, narrow doorways and hallways.
    The bottom line is that without the SAH grant making modifications 
to our home I would not have been able to return home. I would have had 
to go and stay at a nursing home. It is now June 4th and I am still in 
that same long cast using the same larger wheelchair but I am at HOME 
where I belong!
    It is not just this SAH grant that I say a heartfelt thanks to the 
Veteran's Administration and the government for but it is for the years 
of assistance I have received and help and sound advice from VA 
employees. Without the van lift, the Hoyer lift, the larger wheelchair, 
a ramp in the garage, exceptional employees like Winston Hunter and 
Allan Munn I don't know what my wife and I would have done or how we 
would have managed. The SAH grant has been a life saver. Yes, it was a 
long process and very time consuming but we are grateful that it is 
available to veterans who want to remain in their own home or in their 
parents' home. I am able to live at home thanks to the veterans and 
more importantly thanks to my wife who has stood beside me and helped 
open doors and perused adaptive equipment and the SAH grant for me 
through the Veteran's Administration.
    Thank you Members of Congress for taking care of American Veterans 
and their families. Keep up the good work--please!

          POST-HEARING QUESTIONS AND RESPONSES FOR THE RECORD

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                     Washington, DC
                                                       June 8, 2007

Mr. Carl Blake
National Legislative Director
Paralyzed Veterans of America
801 18th St. NW
Washington, DC 20006

Dear Mr. Blake:

    Thank you for testifying before the House Committee on Veterans' 
Affairs Subcommittee on Economic Opportunity hearing on Specially 
Adaptive Housing grant program on June 7, 2007.
    I am submitting additional questions to be included in the hearing 
record. I would appreciate your response to the enclosed additional 
questions for the record by close of business July 6, 2007.
    Please restate the question in its entirety and please provide your 
answers consecutively on letter size paper, single-spaced.
    Thank you for your cooperation in this matter.

            Sincerely,
                                                       John Boozman
                                          Ranking Republican Member
                               __________
                                      Paralyzed Veterans of America
                                                     Washington, DC
                                                      July 10, 2007

Honorable John Boozman
Ranking Member
House Committee on Veterans' Affairs
Subcommittee on Economic Opportunity
333 Cannon House Office Building
Washington, DC 20515

Dear Ranking Member Boozman:

    On behalf of Paralyzed Veterans of America (PVA), I would like to 
thank you again for the opportunity to testify before the House 
Committee on Veterans' Affairs, Subcommittee on Economic Opportunity on 
Thursday, June 7, 2007. As we stated in our testimony, the Specially 
Adapted Housing grant is one of the most important benefits available 
to PVA members, veterans who have incurred a spinal cord injury or 
disease.
    Following the hearing, you submitted additional questions as it 
regards this program. The attached document provides PVA's response to 
your further inquiry of this extremely important benefit.
    PVA looks forward to working with you and Chairwoman Herseth 
Sandlin to ensure that the most appropriate enhancements are made to 
the Specially Adapted Housing grant. Thank you again.

            Sincerely,
                                                         Carl Blake
                                      National Legislative Director
                               __________
    Question 1: Assuming the costs of the following proposals are 
equal, which would you prefer?

    a.  An increase in adaptive housing grant; or
    b.  A second grant of $50,000 to adapt a subsequent home.

    Answer: As we have testified in the past, both of these 
possibilities are a high priority for PVA. Ultimately, we do not 
believe that we should have to choose between one option and the other. 
However, for the sake of this discussion, I will comment on this 
question.
    PVA has long advocated for an increase in the Specially Adapted 
Housing (SAH) grant. As you are probably aware, The Independent Budget 
for FY 2008 recommends that the SAH grant be increased to $60,000. 
However, we believe that the more important recommendation for the SAH 
grant is to develop an automatic annual index for this grant. If an 
index was enacted, we believe that the larger issue of maintaining the 
purchasing power of the grant year-after-year would be achieved. This 
would ensure that, at the very least, the grant would keep pace with 
inflation.
    However, we believe that the option for a second grant of $50,000 
to adapt a subsequent home would be more important to PVA's membership. 
As such, we place this at the top of our preference list of 
enhancements to the SAH grant. I would also note that this is also a 
recommendation in The Independent Budget for FY 2008. Like the needs of 
other families today, veterans' housing needs tend to change with time 
and new circumstances. An initial home may become too small when the 
family grows or become too large when children leave home. Changes in 
the nature of a veteran's disability may necessitate a home configured 
differently and changes in the special adaptations. These things merit 
a second grant to cover the costs of adaptations to a new home.
    We hope that the Subcommittee will consider both of these issues as 
it seeks to enhance the SAH program. PVA looks forward to working with 
the Subcommittee to ensure that legislation considered best benefits 
the severely disabled veterans eligible for the SAH grant. We would be 
happy to respond to any additional questions that you might have.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                     Washington, DC
                                                       June 8, 2007

Mr. Brian Lawrence
Assistant National Legislative Director
Disabled American Veterans
807 Maine Ave., SW
Washington, DC 20024

Dear Mr. Lawrence:

    Thank you for testifying before the House Committee on Veterans' 
Affairs Subcommittee on Economic Opportunity hearing on Specially 
Adaptive Housing grant program on June 7, 2007.
    I am submitting additional questions to be included in the hearing 
record. I would appreciate your response to the enclosed additional 
questions for the record by close of business July 6, 2007.
    Please restate the question in its entirety and please provide your 
answers consecutively on letter size paper, single-spaced.
    Thank you for your cooperation in this matter.

            Sincerely,

                                                       John Boozman
                                          Ranking Republican Member
                               __________

           Post-Hearing Question and Response for the Record
           Joseph A. Violante, National Legislative Director
                       Disabled American Veterans
                               Before the
                     Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
                 United States House of Representatives
                              June 7, 2007

QUESTION:

    1.  Assuming the costs of the following proposals are equal, which 
would you prefer?

      A.  An increase in adaptive housing grant; or
      B.  A second grant of $50,000 to adapt a subsequent home.

RESPONSE:

    The Disabled American Veterans (DAV) would prefer an increase in 
the adaptive housing grant. Currently, the Department of Veterans 
Affairs (VA) has interrupted the law for adaptive housing grants to 
allow a qualified veteran to apply any unused portion of his or her 
adaptive housing grant toward a newly qualified renovation to a home. 
Therefore, even older veterans who have used less than the maximum of 
their adaptive housing grant could benefit from an increase in the 
adaptive housing grant.
    DAV appreciated the opportunity to provide these comments as an 
addendum to our testimony during the June 7, 2007 hearing.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                     Washington, DC
                                                       June 8, 2007

Mr. Thomas Zampieri, Ph.D.
Director of Government Relations
Blinded Veterans Association
477 H Street NW
Washington, DC 20001

Dear Mr. Zampieri:

    Thank you for testifying before the House Committee on Veterans' 
Affairs Subcommittee on Economic Opportunity hearing on Specially 
Adaptive Housing grant program on June 7, 2007.
    I am submitting additional questions to be included in the hearing 
record. I would appreciate your response to the enclosed additional 
questions for the record by close of business July 6, 2007.
    Please restate the question in its entirety and please provide your 
answers consecutively on letter size paper, single-spaced.
    Thank you for your cooperation in this matter.

            Sincerely,

                                                       John Boozman
                                          Ranking Republican Member
                               __________
                                       Blinded Veterans Association
                                                     Washington, DC
                                                      June 23, 2007

The Honorable John Boozman
Ranking Member, Subcommittee on Economic Opportunities
Committee on Veterans' Affairs
335 Cannon House Building
Washington, DC 20515

Dear Chairman Boozman:

    On behalf of the Blinded Veterans Association (BVA), the only 
congressionally chartered veterans' service organization exclusively 
dedicated to serving the needs of our Nation's blinded veterans and 
their families for over 60 years, BVA would like to express strong 
support of your leadership to increase benefits for special adaptive 
housing as recommended by all endorsers of The Independent Budget. BVA 
would like to take this opportunity to thank you for your unwavering 
support of our Nation's disabled veterans in trying to make some 
increase in the adaptive housing grants necessary to meet the needs of 
veterans to live independently.
    In regards to the questions on assuming the costs of the following 
proposals are equal which would you prefer in your followup questions 
BVA would respond this way.

    1. (A) BVA would prefer that the total increase for adaptive 
housing grant be made for the veterans' residence to meet the higher 
costs of making the adjustments necessary to live independently. In 
regards to the question of a second grant of $50,000 to adapt a 
subsequent house, we would recommend that a smaller grant be made 
available to cover expenses if a veteran has to move into another home 
either for access to employment or to improve access to public 
transportation. Our experience is often disabled veterans who get the 
adaptive housing grants live in their homes for many years without 
moving, however if with the changing employment situation they must 
move they should be entitled to have another grant to cover some 
modifications in a new home similar to provision for a OIF veteran who 
initially lives with parents and then moves into their own home.
    It is essential that the VA have this authority in any legislation 
to both provide for an increase in the current amount for adaptive 
housing grants, but to allow some provision for those who do have to 
move. We would argue that many studies show that it is less expensive 
to the government to support a disabled individual to live 
independently than to live in a nursing home or assisted living 
facility.
    Once again, BVA thanks you for your tireless efforts on behalf of 
all veterans. We look forward to working with you and all members of 
the Committee.

            Sincerely,
                                             Thomas Zampieri, Ph.D.
                                     Director, Government Relations

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                     Washington, DC
                                                       June 8, 2007

Mr. Brian Catalde
President
National Association of Home Builders
Paragon Communities, Inc.
203 Richmond St.
El Segundo, CA 90245

Dear Mr. Catalde:

    Thank you for testifying before the House Committee on Veterans' 
Affairs Subcommittee on Economic Opportunity hearing on Specially 
Adaptive Housing grant program on June 7, 2007.
    I am submitting additional questions to be included in the hearing 
record. I would appreciate your response to the enclosed additional 
questions for the record by close of business July 6, 2007.
    Please restate the question in its entirety and please provide your 
answers consecutively on letter size paper, single-spaced.
    Thank you for your cooperation in this matter.

            Sincerely,
                                                       John Boozman
                                          Ranking Republican Member
                               __________
      Questions from Hon. John Boozman, Ranking Republican Member,
   Subcommittee on Economic Opportunity, to Brian Catalde, President,
    National Association of Home Builders, and President and Chief 
                               Operating
          Officer, Paragon Communities, El Segundo, California

    1.  If we were to authorize tying grant increases to some cost of 
construction, which construction index would you suggest?

    2.  We have heard testimony that it cost more to renovate an 
existing structure then to build from scratch. Do you agree with that 
statement?

    3.  What is the range of construction cost across the nation?

    4.  You suggested compiling a list of approved contractors. Who 
would maintain such a list and who would determine the qualifications 
to be included on the list and wouldn't such a list eliminate access to 
qualified contractors?

                               __________

[NO RESPONSE TO THE QUESTIONS WAS RECEIVED FROM MR. CATALDE.]

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                     Washington, DC
                                                       June 8, 2007

Mr. Keith Pedigo
Director
Loan Guaranty Service
Department of Veterans Affairs
1800 G Street, NW
Washington, DC 20036

Dear Mr. Pedigo:

    Thank you for testifying before the House Committee on Veterans' 
Affairs Subcommittee on Economic Opportunity hearing on Specially 
Adaptive Housing grant program on June 7, 2007.
    I am submitting additional questions to be included in the hearing 
record. I would appreciate your response to the enclosed additional 
questions for the record by close of business July 6, 2007.
    Please restate the question in its entirety and please provide your 
answers consecutively on letter size paper, single-spaced.
    Thank you for your cooperation in this matter.

            Sincerely,

                                                       John Boozman
                                          Ranking Republican Member

                               __________

                        Questions for the Record
         The Honorable John Boozman, Ranking Republican Member
                  Subcommittee on Economic Opportunity
                  House Committee on Veterans' Affairs
                              June 7, 2007
                Specially Adaptive Housing Grant Program

    Question 1: After the enactment of P.L. 109-233, the VA has seen an 
increase in the number of grant applications from 1,000 per year to 
4,200 applications in FY 2007. Please compare the pre and post P.L. 
109-233 time required to begin construction once a vet has been 
determined eligible for a grant.

    Response: The Department of Veterans Affairs (VA) is conducting 
data analysis to better answer your question and will provide a 
response by September 2007.

    Question 2: Please provide the total number of loan guarantee staff 
dedicated to the SAH program prior to and after P.L. 109-233.

    Response: Both prior to and after Public Law (P.L) 109-233, VA has 
had 13 full-time and 63 part-time specially adaptive housing (SAH) 
agents. The Veterans Benefit Administration is in the process of hiring 
an additional 25 SAH agents at the regional loan enters.

    Question 3: Please describe how Loan Guarantee field staff 
coordinates the SAH grant between veteran, builder and the financial 
institution.

    Response: To inform the veteran about the SAH program, the SAH 
agent conducts an initial meeting with the veteran. These meetings take 
place in-person whenever possible. During the meeting, the agent 
describes the various construction options available to create a 
barrier-free living environment. The agent also provides a copy of VA 
Pamphlet M26-13, Handbook for Design. M26-13 describes the specific 
accessibility features that could be incorporated into the design and 
construction, such as widening doorways, installing ramps and 
handrails, and other similar enhancements. In addition, the agent may 
also provide a list of contractors that have been approved for SAH work 
in the area. VA does not recommend a specific contractor. The agent 
also takes this opportunity to inform the veteran about other VA 
resources and benefits that may be available to them, such as home 
improvement and structural alterations (HISA), to improve their 
independence.
    Once the veteran selects a contractor, the SAH agent meets with the 
veteran and contractor to review the SAH program requirements and 
answer any questions. At this time, a copy of the Handbook for Design 
is also made available to the contractor.
    When the veteran and contractor have agreed to a contract and set 
of design plans, they submit the plans to the SAH agent for review and 
approval. The SAH agent may require changes to the plans to ensure that 
the adaptations will be suitable to the veteran's needs for dwelling 
purposes. In such cases, the agent returns the plans to the veteran and 
contractor for revision. The revised plans will then come back to the 
agent for final approval.
    Once the grant has been approved, the SAH agent requests the grant 
funds from the Treasury. When received, the SAH agent deposits the 
funds into an escrow account selected by the veteran. At the time of 
deposit into the escrow account, the SAH agent, veteran, contractor and 
escrow agent meet and discuss the disbursement schedule of the grant 
funds.
    VA then assigns a VA compliance inspector to the construction 
project to assess the completion of the scheduled construction phases. 
The VA compliance inspector notifies the SAH agent when a phase is 
considered complete and pursuant to the escrow agreement the agent then 
contacts the escrow agent to authorize release of the prescribed 
portion of grant funds.
    To ensure continuity, the SAH agent works with the veteran 
throughout the process and regularly stays in communication via 
telephone, email or personal visits.

                           EXECUTIVE SUMMARY

 2007 Lender Satisfaction Survey with the VA Home Loan Guaranty Program

Introduction and Background
    This report presents findings from the 2007 Lender Satisfaction 
Survey with the VA Home Loan Guaranty Program. The report represents 
the fourth iteration of the survey; however, it represents the first 
administration since 2002. The survey was sponsored by VA's Loan 
Guaranty Service (LGY) and was conducted by Caliber/ICF International, 
a global research consulting organization.
    The primary objective of the survey was to gauge lender 
satisfaction with the VA Home Loan Guaranty Program at both the 
regional and national levels. The survey examined lender satisfaction 
in a number of areas, including contact with VA, awareness of the 
program, training, outreach, eligibility determination, appraisal 
process, and overall impressions. Prior to administering the 2007 
version, VA made minor revisions to the questionnaire by adding or 
modifying questions.
    The results of the survey can be used to:

    <bullet>  Identify areas of the VA Home Loan Guaranty Program which 
are most and least satisfying to lenders;
    <bullet>  Determine which improvements to the program will have the 
greatest impact on lender satisfaction; and
    <bullet>  Provide data to support performance measures tracked by 
VA on an annual basis.

    This report presents the results of the 2007 survey and, where 
applicable, presents data comparisons with the 2002 survey.
Methodology
    VA requested survey responses from the census of 2,000 lending 
institutions that had closed at least five loans in the first half of 
the Fiscal Year. Respondents were mailed three packages:

    <bullet>  First Invitation Letter--invitation letter with Web link 
and login
    <bullet>  Reminder #1--reminder postcard
    <bullet>  Reminder #2--reminder postcard

    The survey was administered via the Web from June 4, 2007 to August 
22, 2007. The final overall response rate was 33.98%. Table 1 presents 
the sample distribution and the associated response rate.

             Table 1:

------------------------------------------------------------------------

------------------------------------------------------------------------
2007 Lender Satisfaction Survey
Final Sample Distribution and Response Rates
------------------------------------------------------------------------
Total Mailed                                                      2,000
------------------------------------------------------------------------
Received Paper                                                      N/A
------------------------------------------------------------------------
Received Web                                                        630
------------------------------------------------------------------------
  Total Received                                                    630
------------------------------------------------------------------------
Undeliverable                                                       146
------------------------------------------------------------------------
Deceased                                                              0
------------------------------------------------------------------------
Refused                                                               2
------------------------------------------------------------------------
Total (minus Undel)                                               1,854
------------------------------------------------------------------------
    Response Rate                                                33.98%
------------------------------------------------------------------------


    To ensure that the lenders who responded to the survey adequately 
represented the census of lenders, we examined whether the responders 
differed from the non-responders in terms of lender size. We found that 
the majority of the largest lenders responded to the survey and there 
was little difference between the respondents and non-respondents. 
Additionally, since there was very little relationship between the 
lenders' self-reported primary RLC and the RLC in the administrative 
dataset (as many lenders are national providers), we did not weight the 
data by Regional Loan Center. As a result, the data was not weighted by 
any lender characteristic.
Report Highlights
    There was one strategic performance measure that was gathered from 
this survey:

    <bullet>  Overall Satisfaction with the VA Home Loan Guaranty 
Program (Q60): In 2007, 93.2% of lenders reported being very or 
somewhat satisfied with the VA home loan guaranty program. 
(Satisfaction with the program was high regardless of lender size.)

    The following bullets highlight some of the other major findings 
from this survey:

    <bullet>  About two-thirds of the lending institutions responding 
to the survey had been in the mortgage industry for 15 years or more.
    <bullet>  Inquiries about underwriting remained the top reason for 
lenders contacting RLCs. Three in four lenders indicated that phone was 
the preferred method to contact VA, and 96% of lenders rated VA as 
responsive.
    <bullet>  About two-thirds of lenders attended one VA training 
session in the past 12 months and one-third attended two or more 
training sessions, with online training being the preferred method. 
Furthermore, 92% of lenders found VA training sessions effective.
    <bullet>  96% of lenders encouraged eligible veterans to use the 
Loan Guaranty program with 71% indicating that the no downpayment 
feature was the most attractive element.
    <bullet>  About one-third indicated that lenders misperceive the 
program. However, four in five lenders believe VA can alter these 
perceptions.
    <bullet>  Comparing the survey results of 2002 to 2007, there was a 
6% point increase in satisfaction with the quality of work of VA 
appraisers. Similarly, there was a 6% point increase in satisfaction 
with courtesy and professionalism of VA appraisers and a 10% point 
increase in satisfaction with the timeliness of VA appraisers.
    <bullet>  Nearly 100% of lenders would recommend the Loan Guaranty 
program to veterans.

    We also conducted a quadrant analysis to identify areas of high 
program performance and areas for program improvement that are of 
greatest importance to lenders. The customer satisfaction items in the 
quadrant analysis were plotted on the basis of importance and 
satisfaction with the quadrant lines placed at the approximate 
midpoints of the scores at the national level (quadrant I). Similarly, 
areas in which customers place high importance and rate high 
satisfaction offer VA opportunities to market program success (quadrant 
II). The following bullets provide a summary of the customer 
satisfaction items found in quadrants I and II.

    <bullet>  Quadrant I: High Priority Action Items (High Importance; 
Low Satisfaction)
      --  Timeliness of VA appraisers (Q55)
      --  Courtesy and professionalism of appraisers (Q56)
      --  Quality of work of VA appraisers (Q57)

    <bullet>  Quadrant II: High Priority Relationship Building Items 
(High Importance; High Satisfaction)
      --  Satisfaction with the timeliness and the clarity of 
information lenders receive from the VA (Q17, Q18)
      --  Effectiveness and quality of VA-sponsored trainings (Q26, 
Q28)
      --  Satisfaction with VA's online systems (Q47)
      --  Satisfaction with the information and the informational 
resources provided by VA (Q30)
      --  Satisfaction with your experiences contacting VA personnel at 
the Regional Loan Center (Q14)
      --  Satisfaction with the professionalism of VA personnel (Q11)

                           EXECUTIVE SUMMARY
         2007 Specially Adapted Housing Program: Grantee Survey

Introduction and Background
    This report presents findings from the 2007 Specially Adapted 
Housing (SAH) Program Survey. The report represents the second 
iteration of the survey; the last iteration was conducted as part of a 
program evaluation in 2002-2003. The survey was sponsored by VA's Loan 
Guaranty Service (LGY) and was conducted by Caliber/ICF International, 
a global research consulting organization.
    The primary objective of the survey was to gauge veteran 
satisfaction from the census of veterans who received the final 
disbursement of their grants from the SAH program in Fiscal Year (FY) 
2006. The survey examined veteran satisfaction around a number of 
areas, including learning about the SAH program; initial letter of 
notification; program eligibility and application; SAH contacts/
communication; grant type and plans; receiving the grant funds; using 
the SAH grant; satisfaction with contractor; satisfaction with 
inspector; and overall satisfaction with the program experience.
    Prior to administering the 2007 version, VA significantly revised 
the questionnaire and added additional questions of interest. Cognitive 
lab sessions were used to refine and pilot-test the instrument.
    The results of the survey can be used to:

    <bullet>  Identify areas of the SAH grant process where veterans 
are most and least satisfied;
    <bullet>  Determine which improvements to the process will have the 
greatest impact on veteran satisfaction with the SAH program; and
    <bullet>  Provide data to support performance measures tracked by 
VA on an annual basis.

    This report presents the results of the 2007 survey.

Methodology

    The survey was mailed to the census of individuals that received 
their final disbursement on an SAH grant in FY 2006, had a valid home 
address, and were not recorded as deceased in VA's databases (n = 408). 
(Note: In the 2003 survey, the census was drawn based on the FY grant 
approved date, as compared to the final disbursement date. Therefore, 
the population of veterans surveyed in the 2003 survey may not have 
completed construction modifications to their home at the time of the 
survey.)
    Respondents were mailed four packages:

    <bullet>  First Survey Package--cover letter; survey; business 
reply envelope
    <bullet>  Reminder #1--reminder postcard
    <bullet>  Second Survey Package--cover letter; survey; business 
reply envelope
    <bullet>  Reminder #2--reminder postcard

    The survey was administered from June 4, 2007 to August 20, 2007. 
The final overall response rate was 68.79%. Table 1 presents the sample 
distribution and the associated response rate.

Table 1:

----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
2007 VA Specially Adapted Housing Survey
Final Sample Distribution and Response Rate
----------------------------------------------------------------------------------------------------------------
                                                                                            Total
                                                                                           (minus      Response
                                   Mailed     Undeliverable     Refused      Deceased      Undel)          Rate
----------------------------------------------------------------------------------------------------------------
TOTAL                                 408                46           0             0         362        68.79%
----------------------------------------------------------------------------------------------------------------


Report Highlights
    There was one strategic performance measure that was gathered from 
this survey:

    <bullet>  Do the housing adaptations help you live more 
independently? (Q82): In 2007, 93.2% of veterans strongly agreed or 
agreed that the adaptations allow them to live more independently.

    The following bullets highlight some of the other major findings 
from this survey:

    <bullet>  Veteran Service Organizations (VSO), letters from VA, and 
VA marketing materials were the most frequent way grantees first 
learned about the SAH. When it was a VSO, most grantees learned from 
Disabled American Veterans (43%) or Paralyzed Veterans of America 
(25%). However, personal visits from SAH agents were the most effective 
way to learn about the program.
    <bullet>  The majority of SAH grant recipients reported contact 
with their agent within 30 days of receipt of 26-39 letter.
    <bullet>  Almost 25% reported having problems with the grant 
application. Common problems included: (1) asked for information felt 
VA should have; or (2) some of the instructions were confusing.
    <bullet>  About three in four veterans felt that VA kept them 
informed about the status of their SAH application.
    <bullet>  91% of the applicants received the maximum grant amount.
    <bullet>  For Type A grant users, almost 60% remodeled an existing 
home. Of those who were unable to use their first choice of grant plan, 
about half had to acquire land because their original plan to adapt 
their house was not feasible. For Type B grant users, about half 
adapted a current house.
    <bullet>  93% rated the adaptive items provided by the SAH grant as 
adequate. Over 90% used the grant to make bathrooms accessible. Other 
common uses were: (1) install grab bars; (2) widen door openings; or 
(3) install ramps. Over 50% rated accessible bathrooms as most 
important to independent living.
    <bullet>  For about half of veterans (53%), it takes more than 120 
days to build or modify their specially adapted home. Four in ten grant 
recipients had difficulty identifying contractors.
    <bullet>  Over 85 percent rated communication with SAH agent as 
excellent or good. Veterans who rated communication as excellent/good 
were likely to be highly satisfied with the overall SAH program. About 
three-fourths said that they spent as much time with the SAH agent as 
they wanted.
    <bullet>  95% of grantees would recommend the SAH grant program to 
other veterans with service-connected disabilities.

    We also conducted a quadrant analysis to identify areas of high 
program performance and areas for program improvement that are of 
greatest importance to lenders. The customer satisfaction items are 
plotted on the basis of importance and satisfaction with the quadrant 
lines placed at the approximate midpoints of the scores at the national 
level. Generally, areas in which customers place high importance but 
indicate relatively low satisfaction are those that require attention 
(quadrant I). Similarly, areas in which customers place high importance 
and rate high satisfaction offer VA opportunities to market program 
success (quadrant II). The following bullets provide a summary of the 
customer satisfaction items found in quadrants I and II.

    <bullet>  Quadrant I: High Priority Action Items (High Importance; 
Low Satisfaction)
      --  Reasonableness of the time to receive an initial letter of 
notification, 26-39 letter (Q6)
      --  Extent to which sources of learning about the program are 
informative (Q2)
      --  Extent to which veterans are kept informed of the application 
status/process (Q17)
      --  Extent to which veterans are able to spend as much time with 
SAH agent as they wanted (Q27)

    <bullet>  Quadrant II: High Priority Relationship Building Items 
(High Importance; High Satisfaction)
      --  Information provided by the SAH agent (e.g., brochures, 
pamphlets, video, and handbook) (Q21)
      --  Level of satisfaction with the SAH agent's communication 
(Q22)
      --  Involvement in the decisions about the planned adaptations 
(Q26)
      --  Level of responsiveness of the SAH agent to questions and 
inquiries (Q36)
      --  Opportunity to discuss the desired modifications with the SAH 
agent when meeting or calling (Q39)
      --  Courtesy of the SAH agent (Q40)
      --  Level of satisfaction with adaptive items (Q63)
      --  Adequacy of the grant amount (Q53)
      --  Level of satisfaction with inspector's performance (Q76)

                           EXECUTIVE SUMMARY
       2007 Specially Adapted Housing Program: Non-Grantee Survey

Introduction and Background
    This report presents findings from the 2007 Specially Adapted 
Housing (SAH) Program: Non-Grantee Survey. The report represents the 
first iteration of the survey. The survey was sponsored by VA's Loan 
Guaranty Service (LGY) and was conducted by Caliber/ICF International, 
a global research consulting organization, under contract GS-23F8062H, 
V10DY67266.
    The primary objective of the survey was to examine the reasons why 
eligible SAH beneficiaries have not yet applied for the SAH grant. The 
intent of the survey was to provide valid data at the national level.
    The results of the survey can be used to:

    <bullet>  Identify the barriers eligible beneficiaries have in 
learning of the program and applying for the SAH grant;
    <bullet>  Determine which improvements to the SAH grant process 
will have the greatest impact in terms of eligible individuals applying 
for and receiving a grant to accommodate their needs; and
    <bullet>  Provide data to support performance measures tracked by 
the VA on an annual basis.

    This report presents the results of the 2007 survey.

Methodology

    The survey was mailed to the census of living individuals that were 
rated eligible for a SAH grant in Fiscal Year (FY) 2003-2006 but have 
yet to use a grant (n = 968). Respondents were sent three mailing 
packages:

    <bullet>  First Survey Package--cover letter; survey; business 
reply envelope
    <bullet>  Reminder #1--reminder postcard
    <bullet>  Second Survey Package--cover letter; survey; business 
reply envelope

    The survey was fielded from June 6, 2007 to August 22, 2007. The 
final overall response rate was 57.48%. Table 1 presents the sample 
distribution and the associated response rate.

Table 1:

----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
2007 VA Specially Adapted Housing: Eligible Non-Grantee Survey
Final Sample Distribution and Response Rate
----------------------------------------------------------------------------------------------------------------
                                                                                            Total
                                                                                           (minus      Response
                                   Mailed     Undeliverable     Refused      Deceased      Undel)          Rate
----------------------------------------------------------------------------------------------------------------
TOTAL                                 968                72           0             0         896        57.48%
----------------------------------------------------------------------------------------------------------------


Report Highlights
    The following bullets highlight some of the major findings from 
this survey:

    <bullet>  Approximately four in five non-grantees (83%) are aware 
of the program and over half of non-grantees feel that an award letter 
is the best way to inform veterans about the SAH program.
    <bullet>  Two-thirds of the non-grantees have never applied to the 
SAH program (67%). Of those who have not yet applied, about one-third 
are unsure how to apply (31%) and one-third want to use the grant in 
the future (30%).
    <bullet>  About half of those that submitted applications had 
difficulty with the grant approval process (55%). The major reasons 
were: (1) current house not suitable for adaptation; (2) developing the 
building/remodeling plans; or (3) contractor problems.
    <bullet>  Overall, the reasons for not obtaining or using a SAH 
grant varied with 21% of non-grantees indicating that they decided to 
defer grant to later time.

                           EXECUTIVE SUMMARY
2007 Veteran Satisfaction Survey with the VA Home Loan Guaranty Program

Introduction and Background
    This report presents findings from the 2007 Veteran Satisfaction 
Survey with the VA Home Loan Guaranty Program. The report represents 
the fifth iteration of the survey since it was originally developed in 
2000; however, it represents the first administration since 2003. The 
survey was sponsored by VA's Loan Guaranty Service (LGY) and was 
conducted by Caliber/ICF International, a global research consulting 
organization.
    The primary objective of the survey was to gauge satisfaction from 
a representative sample of veterans who recently obtained a VA home 
loan at both the national and regional levels. The survey examined 
veteran satisfaction in a number of areas, including contact with VA, 
certificate of eligibility, realtor, lender, appraisal, and overall 
impressions. Prior to administering the 2007 survey version, VA made 
minor revisions to the questionnaire by adding or modifying questions.
    The results of the survey can be used to:

    <bullet>  Identify areas of the home loan process where veterans 
are most and least satisfied at the national and Regional Loan Center 
(RLC) levels;
    <bullet>  Determine which improvements to the process will have the 
greatest impact on veteran satisfaction; and
    <bullet>  Provide data to support performance measures tracked by 
the VA on an annual basis.

    This report presents the results of the 2007 survey and, where 
applicable, presents comparison data to the 2003 survey.

Methodology

    The survey was mailed to a random sample of 13,506 veterans who had 
closed a purchase home loan in Fiscal Year (FY) 2007 from October 2006 
to May 2007. (Note: In the 2003 survey, the sample included veterans 
who obtained either a purchase or refinance loan. The RLC jurisdictions 
also changed slightly from 2003 to 2007.) For each of the RLCs, the 
survey was mailed to approximately 1,400 veterans who had closed a 
purchase loan, except for Honolulu. Honolulu had a smaller sample 
population due to its size.
    Respondents were sent four mailing packages:

    <bullet>  First Survey Package--cover letter; survey; and business 
reply envelope
    <bullet>  Reminder #1--reminder postcard
    <bullet>  Second Survey Package--cover letter; survey; and business 
reply envelope
    <bullet>  Reminder #2--reminder postcard

    The survey was administered from June 4, 2007 to August 20, 2007. 
Respondents had the option of completing the survey on paper or on the 
Web. Upon conclusion of the survey field-period, 72.5% of respondents 
completed the paper survey and the remaining 27.5% completed the Web 
survey. The final overall response rate was 33.31% and ranged from a 
high of 38.59% for the Manchester RLC to a low of 28.35% for the 
Roanoke RLC.
    Given that the response rate was lower than expected, a series of 
non-response analyses were conducted to determine if the responders 
(i.e., those who completed the survey) were different in a meaningful 
way from the non-responders (i.e., those who did not complete the 
survey). The analyses included demographic comparisons on key 
variables, including age, loan amount, income, RLC, and gender. The 
analyses indicated that there were minimal differences between 
respondents and non-respondents, except for age and RLC. The analyses 
showed that older veterans responded at a higher rate than younger 
veterans, and veterans from some regions responded at a higher rate 
than veterans from other regions. As a result, the data was weighted by 
age and RLC. Table 1 presents the sample distribution and the 
associated response rates by RLC.
Table 1:

----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
2007 Survey of Veteran Satisfaction
with the VA Home Loan Guaranty Process
Final Sample Distribution and Response Rates
----------------------------------------------------------------------------------------------------------------
                                                                                            Total
                                                      Unde-                                (minus      Response
RLC                                    Mailed     liverable     Refused      Deceased      Undel)          Rate
----------------------------------------------------------------------------------------------------------------
Atlanta                                  1403            36           1             2        1364        30.28%
----------------------------------------------------------------------------------------------------------------
Cleveland                                1408            19           1             0        1388        35.73%
----------------------------------------------------------------------------------------------------------------
Denver                                   1405            76           0             0        1329        28.74%
----------------------------------------------------------------------------------------------------------------
Honolulu                                  847            99           0             0         748        29.95%
----------------------------------------------------------------------------------------------------------------
Houston                                  1407            48           1             0        1358        35.71%
----------------------------------------------------------------------------------------------------------------
Manchester                               1407            61           1             0        1345        38.59%
----------------------------------------------------------------------------------------------------------------
Phoenix                                  1407            66           1             0        1340        34.18%
----------------------------------------------------------------------------------------------------------------
Roanoke                                  1407            41           1             0        1365        28.35%
----------------------------------------------------------------------------------------------------------------
St. Paul                                 1406            17           0             0        1389        37.51%
----------------------------------------------------------------------------------------------------------------
St. Petersburg                           1409            35           0             0        1374        32.39%
----------------------------------------------------------------------------------------------------------------
  TOTAL                                 13506           498           6             2       13000        33.31%
----------------------------------------------------------------------------------------------------------------


Report Highlights
    There was one strategic performance measure that was gathered from 
this survey:

    <bullet>  Overall Satisfaction with Process of Receiving a VA Home 
Loan (Q69): In 2007, 93.1% of veterans reported being very or somewhat 
satisfied with the VA home loan process.

    The following bullets highlight some of the other major findings 
from this survey:

    <bullet>  Lenders and VA Website effectively informed veterans 
about the Loan Guaranty program.
    <bullet>  Almost half of veterans preferred to hear from VA via a 
letter; the percentage of veterans who indicated e-mail and Website 
were sizable, but preference for these options declined with age.
    <bullet>  About half of veterans contacted VA with the majority 
using the telephone to make the contact. The number of veterans who 
visited a RLC declined between the 2003 and 2007 survey.
    <bullet>  In general, the purpose of veteran contact with VA was to 
apply for the COE or to get information before applying. Lenders 
obtained the veteran's COE in 41% of the cases and over 90% of the 
veterans reported being satisfied if their COEs were processed in 10 
days or less.
    <bullet>  One in three veterans reported that their loans were 
processed in less than 2 weeks. Another 36% of loans were processed 
between 2-4 weeks and the remaining 20% could not recall the timeframe.
    <bullet>  Over 80% of veterans were satisfied with their realtor 
and 60% rated their realtor's knowledge of VA's programs as excellent 
or very good. Only 7% of veterans reported that their realtor 
discouraged them from using the Loan Guaranty program.
    <bullet>  88% of veterans were satisfied or very satisfied with 
their lender. Satisfaction with the Loan Guaranty program improved when 
lender knowledge of the program was high.
    <bullet>  74% of veterans were satisfied or very satisfied with the 
appraisal process and 86% were satisfied or very satisfied with the 
appraiser.
    <bullet>  Veterans were attracted to the no downpayment feature of 
the program. Previous experience with the program was another strong 
motivator in choosing to get a VA home loan.
    <bullet>  Across all RLCs, there was an increase in the 
consideration of alternative loan products. However, 26% of veterans 
reported that if they had not received their VA home loan, they would 
not have been able to purchase their home.
    <bullet>  99% would recommend the Loan Guaranty program to other 
veterans.

    We also conducted a quadrant analysis to identify areas of high 
program performance and areas for program improvement that are of 
greatest importance to our veterans. The customer satisfaction items in 
the quadrant analysis are plotted on the basis of importance and 
satisfaction with the quadrant lines placed at the approximate 
midpoints of the scores at the national level. Generally, areas in 
which customers place high importance, but indicate relatively low 
satisfaction, are those that require attention (quadrant I). Similarly, 
areas in which customers place high importance and rate high 
satisfaction offer VA opportunities to market program success (quadrant 
II). The following bullets provide a summary of the customer 
satisfaction items found in quadrants I and II.

    <bullet>  Quadrant I: High Priority Action Items (High Importance; 
Low Satisfaction)
      --  Extent to which VA toll-free telephone contact provided 
veterans what they needed to know (Q15)
      --  Level of satisfaction with the appraisal process (Q57)
      --  Extent to which veterans felt time to receive COE was 
reasonable (Q34)

    <bullet>  Quadrant II: High Priority Relationship Building Items 
(High Importance; High Satisfaction)
      --  Accuracy of information received about the program (Q4)
      --  Level of satisfaction with realtor (Q39)
      --  Level of satisfaction with lender (Q48)
      --  Ease to which veterans could get information on the program 
from their lender (Q44)
      --  Responsiveness of VA employees on the phone (Q13)
      --  Satisfaction with the quality of the appraisal (Q64)

                                 <all>

</pre></body></html>
